<html>
<title> - [H.A.S.C. No. 111-37]COORDINATING CONTRACT SUPPORT ON THE BATTLEFIELD: DEFENSE, STATE, AND USAID</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                         [H.A.S.C. No. 111-37]
 
 COORDINATING CONTRACT SUPPORT ON THE BATTLEFIELD: DEFENSE, STATE, AND 
                                 USAID

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             APRIL 1, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13





               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          ROB WITTMAN, Virginia
LORETTA SANCHEZ, California          WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        MIKE ROGERS, Alabama
SUSAN A. DAVIS, California           TRENT FRANKS, Arizona
JIM COOPER, Tennessee                CATHY McMORRIS RODGERS, Washington
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GLENN NYE, Virginia                  DUNCAN HUNTER, California
CHELLIE PINGREE, Maine
                    Sasha Rogers, Research Assistant
                Thomas Hawley, Professional Staff Member
                      Trey Howard, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, April 1, 2009, Coordinating Contract Support on the 
  Battlefield: Defense, State, and USAID.........................     1

Appendix:

Wednesday, April 1, 2009.........................................    33
                              ----------                              

                        WEDNESDAY, APRIL 1, 2009
 COORDINATING CONTRACT SUPPORT ON THE BATTLEFIELD: DEFENSE, STATE, AND 
                                 USAID
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Wittman, Hon. Rob, a Representative from Virginia, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2

                               WITNESSES

Hutton, John P., Director, Acquisition and Sourcing Management, 
  U.S. Government Accountability Office..........................     8
Moser, William H., Deputy Assistant Secretary of State (Logistics 
  Management), U.S. Department of State..........................     6
Motsek, Gary, Assistant Deputy Under Secretary of Defense, Office 
  of Program Support, Office of the Under Secretary of Defense 
  (Acquisition, Technology & Logistics)..........................     3
Shauket, Maureen A., Senior Procurement Executive, Director of 
  the Office of Acquisition and Assistance, Bureau for 
  Management, U.S. Agency for International Development..........     7

                                APPENDIX

Prepared Statements:

    Hutton, John P...............................................    62
    Moser, William H.............................................    55
    Motsek, Gary.................................................    43
    Shauket, Maureen A...........................................    58
    Snyder, Hon. Vic.............................................    37
    Wittman, Hon. Rob............................................    40

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Dr. Snyder...................................................    79
 COORDINATING CONTRACT SUPPORT ON THE BATTLEFIELD: DEFENSE, STATE, AND 
                                 USAID

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                          Washington, DC, Wednesday, April 1, 2009.
    The subcommittee met, pursuant to call, at 1:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon, 
and welcome to the House Armed Services Oversight and 
Investigations Subcommittee's second hearing following up on 
specific legislation related to contingency contracting and the 
acquisition workforce.
    Today's hearing will focus on the implementation of Section 
861 of the National Defense Authorization Act (NDAA) for Fiscal 
Year 2008, which required the Department of Defense, Department 
of State, and the United States Agency for International 
Development (USAID) to sign a memorandum of understanding 
regulating contracting matters in Iraq and Afghanistan.
    This subcommittee has been interested in interagency 
cooperation in Iraq and Afghanistan for over two years, and 
contracting is an important piece of that. Earlier this year, 
Secretary Gates told the Senate, ``We have not thought 
holistically or coherently about our use of contractors, 
particularly when it comes to combat environments.''
    In April 2008, in a full committee hearing on the Gansler 
Commission recommendations, Chairman Skelton noted the 
Commission's suggestion that there ought to be an integrated 
expeditionary command to coordinate contracting with a ``whole 
of government'' approach.
    Just last week, Major General Darryl Scott, the former 
commander of the Joint Contracting Command Iraq/Afghanistan, 
gave us several specific examples of contracting projects where 
interagency cooperation broke down, resulting in waste of 
taxpayer dollars.
    Finally, as was mentioned at last week's hearing that we 
had, the Department of Defense spends over half of all contract 
dollars on services contracts and smaller items versus major 
defense acquisition programs.
    Section 861 mandated that the agencies with witnesses 
before us today negotiate and agree upon a memorandum of 
understanding (MOU), which they did in July 2008. We are here 
today to see how well they have done in implementing the MOU. 
The MOU was intended to increase visibility across the agencies 
and to enhance our ability to track contracts and contractors 
to know where they are, what they are working on, how much we 
are paying them, and how that work is proceeding.
    The MOU also provides a framework to ensure that 
contractors who are traveling though the battlespace do so 
safely, and that any contractor who commits a criminal act is 
prosecuted to the fullest extent of the law by the appropriate 
agency. Ultimately, the real purpose of this MOU is to help all 
our men and women in these wars, both in and out of uniform, 
accomplish the often difficult and dangerous missions that we 
have asked of them.
    The witnesses we have with us today are at the front lines 
of making sure this kind of coordination happens, and we look 
forward to hearing from each of them. And before I introduce 
them, I will turn to Mr. Wittman, our ranking member, for any 
comments he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 37.]

STATEMENT OF HON. ROB WITTMAN, A REPRESENTATIVE FROM VIRGINIA, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Wittman. Thank you, Mr. Chairman.
    And I wanted to thank our witnesses today for taking time 
out of your busy schedule to join us; we certainly appreciate 
that and look forward to your testimony.
    Now, at our hearing on contingency contracting last week, 
the Army and Department of Defense officials described the 
changes that the Department of Defense (DOD) is instituting to 
improve management of services contracting contingency 
operations. Indeed, DOD's response to the Gansler Commission 
recommendations have been comprehensive, and it is beginning to 
have the desired effect. We will continue to watch closely to 
make sure that today's urgent lessons are not lost in future 
contingency operations none of us can now foresee.
    Today's hearing is about the next step; namely, integrating 
and coordinating the efforts of all elements of the federal 
government to ensure unity of effort in a contingency 
operation. While a seamless, efficient federal goal is a 
laudable goal, we should recognize that this standard will be 
difficult to reach. We are not close to solving interagency 
coordination here in peacetime; Washington, D.C. is a far 
easier challenge than figuring it out under fire in a sovereign 
foreign nation.
    Afghanistan and Iraq are the first major conflicts in which 
we have expected the civilian side of government to perform 
duties and deliver services in a non-permissive or hostile 
environment. It is understandable that our acquisition system 
is disjointed since we are literally experimenting as we go on 
new ways to meld the capabilities of the various elements of 
our federal government.
    We recognize that the State Department operates through the 
ambassador, the Department of Defense through the combatant 
commander, and USAID is semi-independent. But because our new 
joint interagency way of operating promises better results, as 
we have seen in Iraq, it is even more urgent that we sort out 
clear lines of authority for U.S. government activities in 
contingency operations.
    I am less concerned with dictating a single computer system 
or contracting method than in ensuring that responsible 
officials on the ground, be they military or civilian, know 
what contractor is responsible for what services, and what 
contractors they are responsible to support. I would like to 
hear common sense solutions for the practical operational 
issues our deployed military and civilian leaders face in the 
field.
    I am confident we can make substantial progress, if not 
entirely fix the system, and we in Congress must do our part to 
rationalize the maze of authorities the various agencies 
possess for nation-building efforts.
    Our witnesses today are experts in this area, and ladies 
and gentlemen, I look forward to hearing from you and your 
thoughts and ideas about how we can bring all of these 
different efforts together in the most efficient way possible.
    Thank you, Mr. Chairman. I yield back.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 40.]
    Dr. Snyder. Thank you, Mr. Wittman.
    Our witnesses today are Mr. Gary Motsek, Assistant Deputy 
Under Secretary of Defense for Program Support; Mr. William 
Moser, Deputy Assistant Secretary of State for Logistics 
Management; Ms. Maureen Shauket, Director of the Office of 
Acquisition and Assistance and Senior Procurement Executive for 
USAID; Mr. John Hutton, Director of Acquisition and Sourcing 
Management at the Government Accountability Office (GAO).
    We appreciate all of you being here. Your written 
statements will be made a part of the record. We will recognize 
each of you for five minutes, and I think--hopefully our lights 
will work. When you see the red light go on that tells you five 
minutes is up. We want you to keep going if there are other 
things you need to tell us, but I would encourage you to err, 
kind of, on the side of a summary statement.
    I also appreciate you all being here today to discuss what 
I think is pretty complicated material, and this is all in the 
spirit of doing what we all want to do, which is get the best 
bang for the buck of the American taxpayer in a way that helps 
our men and women in uniform in a very, very complicated war 
environment in Iraq and Afghanistan.
    So I think we are going to begin with Mr. Motsek. Is that 
correct? Yes. We will begin with Mr. Motsek, so for five 
minutes. It is good to see you again.

 STATEMENT OF GARY MOTSEK, ASSISTANT DEPUTY UNDER SECRETARY OF 
    DEFENSE, OFFICE OF PROGRAM SUPPORT, OFFICE OF THE UNDER 
   SECRETARY OF DEFENSE (ACQUISITION, TECHNOLOGY & LOGISTICS)

    Mr. Motsek. Chairman Snyder, good afternoon. Chairman 
Snyder, Congressman Wittman, and Mrs. Davis, good to see you.
    Thank you for the opportunity to appear before you and 
participate in today's discussion. I would like to thank the 
committee for their continued support of our troops, and all 
you have helped already for us to do our mission. I would also 
like to recognize the men and women who serve our great 
country, and that includes our military-civilian coalition, 
interagency and industry partners. None of us could have gotten 
this job done without the other, and I am continually impressed 
by the increasing cooperation among us.
    I have a written statement, which you should have. I may go 
back to that during Q and A's because we have imbedded some of 
the matrixes of where we stand with Section 861 on that written 
statement.
    In my brief opening remarks I would like to highlight the 
progress we have made in our broader efforts to improve 
oversight and management of contractors and contingency 
operation and specific emphasis on DOD's progress in 
implementing the memorandum of understanding regarding 
contracting in Iraq and Afghanistan that was required by 
Section 861. We are continuing to make significant advances in 
executing our strategic goals as outlined in our earlier 
Section 854 report to Congress that was submitted last April.
    There are other complimentary enablers along with 861, such 
as Section 862 and 1248 of the last NDAA. In fact, we really 
have to look at holistically as we respond to your questions. 
And of course, as the chairman has noted, our response to the 
Gansler report is also integral to this entire effort.
    First, I would like to provide oversight--to provide 
oversight and synchronization inside of DOD, I, along with the 
vice-director for logistics, the J-4, have institutionalized 
what we call the Section 854 General Officer Steering 
Committee. It consists of military department representatives 
and defense agency senior program managers for operational 
contract and support, and we meet regularly as the center of 
the community of practice and community of interest who 
regularly oversee and synchronize the implementation of our 
joint policies.
    Second, to ensure we have a single in-theater program 
manager providing oversight and management of our contracts and 
contractors, we have instituted a planning and coordination 
structure for future contingencies. The key to that is the 
Joint Contingency Acquisition Support Office (JCASO), which is 
building its capacity right now to perform program management 
and operational synchronization for all theaters and their 
contracting efforts.
    On October 20, we fielded a provisional JCASO structure 
with a Senior Executive Service (SES) in charge. We thank the 
Congress for giving us the two-star billet, which we will fill 
in the future when we have a qualified individual. We have 
developed a concept of operations, and we have been exercising 
that concept along with our joint combatant commanders, and 
narrow efforts include interagency planning and coordination.
    To assist our geographical combatant commanders to identify 
the requirements and identifying the gaps in their contracting 
support packages and their operation plans, we have allocated 
14 joint operational contract support planners to the commands. 
These planners are helping to integrate the required contractor 
support into future plans and synchronize requirements with its 
subordinate commands, the other agencies, and other government 
agencies, and our coalition partners.
    To this date, the planners have reviewed the operational 
plans and concept plans in each of the commands and are 
developing the overarching templates as an operational support 
annex to the plans. Just as an example, as we sit here today, 
the official direction about Annex W, which is contractors in 
what we call the Joint Strategic Capabilities Plan (JSCP), 
consists of two paragraphs of instruction. These planners have 
now expanded that to a provisional 12 pages of instructions. So 
that is the level of detail and broad context that we are 
trying to get into our future operational plans.
    Fourth, we are making progress in our transition from the 
manual accounting of contractor personnel to use the 
synchronized pre-deployment and operational tracker--we call it 
the Synchronized Pre-Deployment and Operational Tracker 
(SPOT)--to track contractor personnel and contractor capability 
in theater. Approximately 70 percent of our contractor 
population, which includes virtually all U.S. and most third-
country nationals, as reported in our last manual census, have 
been registered in SPOT.
    I anticipate two more cycles of the manual census before we 
transition to the operational system, but it is incumbent to me 
that we have a high confidence-level--high 90s percent 
confidence-level that we are tracking the exact numbers in both 
systems. And our interagency partners obviously have the 
capability to register their contract personnel.
    With respect specifically to the implementation of Section 
861, State and USAID have signed a memorandum of understanding; 
we have identified our roles and responsibilities and 
identified SPOT as the common database. Since that July, we 
have made significant progress in our implementation.
    As noted in my written statement, many of the requirements 
of Section 861 have been met through the added functionality of 
SPOT. Other requirements are being addressed through policy 
changes and implementation guidance. And again, we are working 
very closely with our partners.
    We are now staffing a revision to the MOU to address the 
additional requirements that were placed upon us by Section 854 
of the last NDAA. From my perspective, the Section 854, found 
in the 2007 NDAA, was a seed change in the way we organize, 
manage, and support our contractors. Institutionalization of 
these changes, as well as stable funding for efforts, continues 
to be my primary priority.
    There are two important efforts that are ongoing right now. 
First, the Chairman of the Joint Chiefs of Staff has a task 
force on the dependence of contractors in contingency 
operations. This task force has examined use of DOD contractors 
to determine our reliance and dependence on that contractor 
support.
    The second effort is the Commission of Wartime Contracting, 
chartered by Congress to look at not just DOD, but all federal 
agencies and their use of contractors and to make specific 
recommendations. We have been extensively engaged with both of 
these efforts, and we urge Congress to let both of these 
efforts reach their conclusion before developing any future 
major statutory change to the way we deal with contractors in 
the battlespace. Again, your support has been absolutely 
critical to our progress thus far, and I will need your 
continued support to achieve our objectives.
    I thank you again, Mr. Chairman and the members of the 
committee, and I will be happy to answer any questions as they 
come up. Thank you, sir.
    [The prepared statement of Mr. Motsek can be found in the 
Appendix on page 43.]
    Dr. Snyder. Thank you, Mr. Motsek.
    Mr. Moser.

 STATEMENT OF WILLIAM H. MOSER, DEPUTY ASSISTANT SECRETARY OF 
     STATE (LOGISTICS MANAGEMENT), U.S. DEPARTMENT OF STATE

    Mr. Moser. Mr. Chairman, Congressman Wittman, Mrs. Davis, I 
welcome the opportunity to provide you an update on the 
Department of State's implementation of Section 861 of the 
National Defense Authorization Act of 2008. Please allow me to 
first express how much we at the State Department appreciate 
the support of this subcommittee.
    As the deputy assistant secretary for logistics management, 
I am responsible for ensuring that our global logistics 
platform provides consistent, reliable support to the men and 
women who directly implement our foreign policy around the 
world. I work daily with the Bureau of Diplomatic Security, 
part of the State Department, as well as with our interagency 
partners, to guarantee the safety and security of our personnel 
in the dangerous but critical environments of Iraq and 
Afghanistan.
    I am pleased to be able to state before you today that this 
is a good news story. Legislation originated by this body is 
part of that story.
    Section 861 of the National Defense Authorization Act of 
2008 reinforced through legislation the strong cooperative 
effort the Department of Defense, the Agency for International 
Development, and the Department of State began in February--
began in February 2007. Even prior to the signing of their July 
2008 MOU, our three agencies had discussed at length how best 
to account for contractor personnel in Iraq and Afghanistan.
    We concluded that the SPOT provided the best available 
information system solution. The Department has 
enthusiastically embraced this solution.
    In March 2008, the Department directed contracted officers 
to incorporate into each contract a regulation that required 
contractors to include their personnel deployed in Iraq and 
Afghanistan in SPOT. Each of our agencies--and I will emphasize 
this--has its own business process for contracting.
    From July until November 2008, the Department of State 
developed our unique system hierarchy for data entry into SPOT 
and defined business rules, roles, and responsibilities. State 
met the Section 861 120-day deadline, and by November 2008 had 
included all contracts, subcontracts, task and delivery orders 
over $100,000 into SPOT.
    In January 2009, SPOT was mandated for all State Department 
grants in Iraq and Afghanistan. As of today, in SPOT, State has 
entered data on 88 contracts and 53 grants. We have 5,670 
contract personnel in Iraq and 1,649 in Afghanistan.
    Much work has been accomplished. SPOT system enhancements, 
which Gary has talked about in his written testimony, will 
continue as the State Department, DOD, and USAID continue to 
work together daily to improve our cooperative efforts in Iraq 
and Afghanistan.
    This concludes my testimony, and I look forward to 
discussing with you any questions you may have.
    [The prepared statement of Mr. Moser can be found in the 
Appendix on page 55.]
    Dr. Snyder. Thank you, Mr. Moser.
    Our next witness--we don't get many opportunities to have 
USAID testify before one of the defense subcommittees, but we 
appreciate you being here, Ms. Shauket, representing your 
agency. We should say that we are zealous advocates on your 
behalf on the need for USAID to have--as with the State 
Department--to have, in Secretary Gates' words, ``dramatic 
increases in funding and personnel.''
    So we appreciate you being here, and you are recognized for 
five minutes or whatever you need.

STATEMENT OF MAUREEN A. SHAUKET, SENIOR PROCUREMENT EXECUTIVE, 
 DIRECTOR OF THE OFFICE OF ACQUISITION AND ASSISTANCE, BUREAU 
   FOR MANAGEMENT, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Shauket. Thank you very much, Mr. Chairman. I am 
honored to be here.
    Mr. Chairman, Ranking Member Wittman, Mrs. Davis, thank you 
for the opportunity to appear before you today to provide an 
update on USAID's compliance with the National Defense 
Authorization Act of 2008. USAID operates in more than 80 
countries worldwide to provide economic, humanitarian, and 
development assistance in support of our U.S. foreign policy.
    In fiscal year 2008, USAID delivered more than $13 billion 
of assistance throughout the world. This success was achieved 
by our dedicated civil service, foreign service, local, and 
third-country national employees working together with our 
implementing partners to achieve sustainable development 
results.
    Our programs in Iraq and Afghanistan represent 5 percent 
and 13 percent respectively of USAID's total program budget. 
Strong oversight and accountability of our programs in these 
critical countries are priorities for USAID. Like our 
colleagues in the Department of Defense and the Department of 
State, USAID is committed to carrying out the terms of the MOU. 
Together, we are working closely with our colleagues to 
properly identify and report contractors on the ground through 
the use of the SPOT database.
    USAID has experienced steady progress with SPOT 
implementation, particularly in Iraq. This progress comes as a 
result of diligent coordination with DOD's SPOT support team 
and our State Department colleagues.
    We are working closely to adopt SPOT to accommodate USAID's 
business process. For example, SPOT is being revised to 
increase the system's capability to track subcontractors.
    In Iraq, SPOT implementation became a reality for USAID in 
late 2008. Our staff has been trained and is actively using the 
database. We have also trained our implementing partners and 
developed specific procedures to assist their personnel in the 
appropriate use of the system. As a result of these efforts, 
USAID mission users, contractors, and grantees now have the 
capability to use the system.
    The current operating environment in Iraq facilitates 
USAID's use of SPOT because SPOT is being used to generate 
letters of authorization, the mechanism for receiving U.S. 
government-provided logistic services. The long established 
practice of requiring letters of authorization as a means of 
gaining access to these facilities has expedited--has been 
expedited by the introduction of SPOT.
    This practice serves as one lesson learned for USAID as we 
look toward implementation of SPOT in Afghanistan. Reviews are 
underway to determine how we can best apply the lessons of Iraq 
to mitigate the challenges posed by the current operation 
environment in Afghanistan, which differs greatly from Iraq. 
With more than 10,000 contractor and grantee personnel on the 
ground in Iraq and only seven U.S. direct hire contracting 
officers supporting this effort, we face a great management 
challenge.
    Additionally, we do not use the letters of authorization 
due to the differing nature of operations in Afghanistan. Our 
implementing partners have long been responsible for their own 
in-country logistics and operational support.
    DOD and State have been extremely receptive to working 
through these challenges with USAID. Daily conversations are 
assisting us in moving forward with the practical 
implementation of SPOT, both in Iraq and Afghanistan.
    We at USAID are committed to actively working on these 
solutions. We look forward to continuing the collaboration with 
our DOD and State colleagues to further enhance our 
accountability and oversight in Iraq and Afghanistan.
    Again, I appreciate the opportunity to appear before you 
today, and I will be pleased to respond to any questions you 
may have.
    [The prepared statement of Ms. Shauket can be found in the 
Appendix on page 58.]
    Dr. Snyder. Thank you, Ms. Shauket.
    We do have a series of votes, but we will be able to hear 
your opening statement, Mr. Hutton, so you are recognized.

STATEMENT OF JOHN P. HUTTON, DIRECTOR, ACQUISITION AND SOURCING 
       MANAGEMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Hutton. Well, thank you.
    Mr. Chairman and members of the subcommittee, thank you for 
inviting me here today to discuss DOD, State, and USAID's 
efforts to implement a memorandum of understanding regarding 
contracting in Iraq and Afghanistan. As you know, DOD, State, 
and USAID have relied extensively on contractors to support 
troops and civilian personnel, and to help rebuild the two 
countries.
    And the use of contractors in contingency operations is not 
new, but the numbers of contractors and the work they are 
performing in Iraq and Afghanistan represent an increased 
reliance on contractors to carry out these agency missions. 
While recognizing the benefits of using contractors, we and 
others have noted the challenges federal agencies have in 
managing and overseeing their growing numbers.
    My statement today is drawn from our ongoing and prior work 
on contracting in the contingency environment, including Iraq 
and Afghanistan. I should also point out that we also had a 
requirement in last year's NDAA, Section 863, to issue a report 
every October 1st for 3 years that would provide detailed 
information on the numbers of contracts, numbers of contractor 
personnel performing in Iraq and Afghanistan, as well as 
information on casualties.
    We issued a report last October, and that work gave us some 
insights on where the agencies were at that time, but it also, 
as we are carrying forward in this year's work, it has given us 
a sense of how much work has been ongoing. But today I will 
first highlight the importance of having information on 
contracts and contractor personnel to manage and oversee 
contractors, and second, the status of the agencies' 
implementation of the MOU and the SPOT database.
    First, we reported extensively on the management and 
oversight challenges related to the use of contractors in 
support of contingency operations and the need for decision-
makers, whether they be in the field or at headquarters, to 
have accurate, complete, and timely information as a starting 
point for addressing this challenge. Although much of our 
priorities focused on DOD, the lessons learned can be applied 
to other agencies relying on contractors to help carry out 
their missions.
    Agencies lacking the complete and accurate information on 
contractors supporting contingency operations may inhibit 
planning, increase costs, and introduce unnecessary risk. For 
example, our work has shown that without incorporating 
information on contractors in the planning efforts, agencies 
risk making uninformed programmatic decisions. The lack of 
insight into contract services being performed increases the 
risk of paying for duplicative services, and costs can increase 
due to a lack of visibility over where contractors are deployed 
and what government support they are entitled to.
    While actions have been taken to address our past 
recommendations, agency officials have noted that the 
implementation of the MOU, and specifically the use of SPOT, 
has the potential to bring dispersed information together so it 
can be used to better manage and oversee contractors. And this 
brings me to my second point: DOD, State, and USAID have made 
some progress in implementing SPOT as agreed to in the MOU, but 
not all contract personnel are being entered at this time.
    While agency officials have expressed confidence that 
certain categories of contractors, including those who have 
access to U.S. installations, are in SPOT, officials 
acknowledge that data on other contractors, namely Iraqi and 
Afghani nationals, for example, are incomplete. Also, USAID is 
not yet requiring its contractors in Afghanistan to use SPOT.
    With these and other limitations, the agencies continue to 
rely on other systems to respond to requests for information on 
their contractors. For example, DOD still relies on a quarterly 
census of contractor personnel because it is regarded as more 
complete than SPOT. But you heard from Mr. Motsek this morning 
their plans in the near-time future to move away from the 
quarterly.
    With respect to contract data, while SPOT has the 
capability to track the required contract information, there 
seem to be different views among the agencies as to which 
contracts need to be tracked. The agencies agreed in the MOU to 
track contracts with a period of performance of 14 days or 
greater or valued at more than $100,000.
    DOD currently requires contracts of more than 30 days of 
performance or a total value of $25,000 to be entered into 
SPOT, but there is some consideration to increase this to 
$250,000. In contrast, USAID officials have suggested that 
other factors, such as whether personnel have access to U.S. 
installations, should determine which contracts go into SPOT.
    In closing, by designating SPOT as their database to track 
information on contracts and contractor personnel, DOD, State, 
and USAID are not only addressing a statutory requirement, but 
when fully implemented, they also have an opportunity to use 
this information to help address the longstanding contract 
management challenges.
    However, agencies have varying views on the level of detail 
and types of information to be captured by the database and the 
usefulness of such data to better plan and oversee contractors. 
It is important that DOD, State, and USAID continue to work 
together to develop and implement a database that is flexible 
enough to be applicable across the agencies while still 
providing detailed information to better manage and oversee 
their contractors.
    Mr. Chairman, this concludes my prepared statement, and I 
would be happy to respond to any questions.
    [The prepared statement of Mr. Hutton can be found in the 
Appendix on page 62.]
    Dr. Snyder. Thank you all. And thank you for both your 
written statements and your oral statements.
    What we will do is, we have votes that will begin--or will 
end in about 10 minutes. And I am going to get in a couple 
questions, then we will need to recess. It is a series of 
votes, so it will probably be close to a half hour or somewhere 
in that range, I would think.
    I have to ask this, as the, you know, as the father of four 
very young boys, about the synchronized pre-deployment and 
operational tracker, what you refer to as SPOT: Mr. Motsek, do 
you get up in the morning and say, ``Run, SPOT, run. Run, run, 
run.''
    I couldn't help myself.
    I wanted to ask----
    Mr. Motsek. Yes.
    Mr. Hutton. And I do, too----
    Dr. Snyder. It certainly is. Synchronized pre-deployment 
and operational tracker.
    When this MOU legislation was passed in the defense bill, 
the purpose is not to end up with another report--more 
information that you all have to compile and get together 
amongst yourselves to compile, and figure out how to work and 
make SPOT run, run, run. The purpose is to help achieve the 
goals that we are trying to achieve in Iraq and Afghanistan.
    And so my question for each of you, Mr. Hutton talked about 
when this information comes together, and if this information 
comes together, it helps manage contracts, which I would think 
would mean do our job better. My question for each of you is, 
to this point, do you believe that we are better off by having 
this MOU, in that--is it not just compiling information but is 
it helping you manage the war and redevelopment effort in Iraq 
and Afghanistan?
    Mr. Motsek.
    Mr. Motsek. Mr. Chairman, I would say, frankly, the MOU is 
a good first effort.
    Dr. Snyder. Is that a ``no''?
    Mr. Motsek. No. I mean, no, it is a yes. But it is a first 
effort. MOUs, by their very nature, are a bit of a challenge 
because, as you know, there is not an enforcing mechanism, as 
you can imagine. And you have to--you know, we are in the 
crawl, walk, run mode, going back to your children, and we are 
in the crawl, walk, walk mode now with our interrelationships 
and our ability to talk some common lexicon and common 
language.
    I personally don't foresee us ever, at this point in time, 
having some supernumerary contracting command that would be 
regional in its construct because we have separate 
appropriations, we have separate business rules, and quite 
frankly, we have separate missions.
    But this is one of the issues we have been addressing with 
the Commission on Wartime Contracting: What is the appropriate 
vehicle in the future to work this interagency process? Because 
fundamentally, even though it is in statute, it is generally a 
voluntary-type process right now; it is on the goodwill of the 
agencies involved to bring this forward as we sit here today.
    And I have got to tell you, frankly, it has been goodwill. 
But having worked with these folks working the MOU to begin 
with, the one thing I learned: If you want to find out how many 
lawyers you have in your agency, try to work an interagency 
MOU, because they will come out of everywhere, and there is 
just this inherent attempt--an inherent belief that you have to 
protect the interests of your agency, your department. And we 
have got to push beyond that. So this was an excellent first 
step.
    Just as an aside, the challenges USAID had are somewhat 
unique compared to DOD, and to accommodate some of their issues 
we have agreed and we are creating a classified version of SPOT 
as well so that they have the opportunity to put it in the 
protected but unclassified version or a classified version, 
where we can merge the numbers later, but the personal 
information can be protected as necessary.
    Dr. Snyder. Mr. Moser.
    Mr. Moser. Chairman Snyder, I will say that we--the State 
Department really does take the position that it is essential 
in any of these situations to have a strong interagency 
presence. We will starkly defend our independence, particularly 
the independence of our contracting authority, in this case, 
but it is also important that we know that we can't get our 
mission done or execute the foreign policy goals of the United 
States without the help of our partners, whether it be in DOD, 
or with USAID, where we are located in many, many countries. I 
mean, this is something that we are used to working in this 
kind of interagency environment all over the world.
    Did the memorandum of understanding help? I think that 
given the situation in--given the situations here before that 
in Iraq, yes, they have been very helpful. However, I will say, 
is that we have--the MOU helped us to get a little bit more 
focus and then help push--help the people on the ground also 
get into more closer coordination on a whole host of issues, 
whether it be the reporting of incidents, or it be the movement 
coordination, that these things were--the MOU was part of an 
evolving situation where cooperation was getting closer and 
closer.
    Dr. Snyder. Ms. Shauket, it really is okay to say, ``No, it 
didn't help.''
    Go ahead.
    Ms. Shauket. No, it has helped us, and while--and mainly in 
the area of collaboration. And what I have seen on the ground 
in both Afghanistan and Iraq is that USAID collaborates very 
closely with our embassy colleagues, as we do in every country, 
but we also coordinate very, very closely with the military on 
the ground. A difference has been, I believe that we are now 
all collaborating more closely in Washington as well, and that 
we have a venue for discussing more of the common problems at 
both levels now.
    Mr. Moser. Yes. Dr. Snyder, if I could add one point to 
that is, you know, if you go--you know, Maureen and I are both 
foreign service officers, and Gary has been at our post, I 
think, in Brussels, right? Before. Yes. He has been actually 
stationed in one of our embassies overseas reviewing the NATO 
mission.
    And basically, you know, in a way that we feel that for the 
most part, at most of our overseas locations, that interagency 
cooperation works pretty well. Really, the real problems in 
interagency cooperation actually happen more frequently in 
Washington, and I think--because overseas there is a real clear 
understanding of what everyone's role is and they know what 
they are supposed to do.
    The MOU, in that regard, was helpful in getting our 
domestic agency front really coordinated better. And that is 
important because it is through that coordination in Washington 
that we actually support those people out in the field.
    Dr. Snyder. I think we better recess now for the votes. We 
will come back and we will begin with Mr. Wittman.
    [Recess.]
    Dr. Snyder. Hearing will resume. Mr. Wittman is recognized 
for five minutes. We will give him an opportunity to catch his 
breath and put his glasses on.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Again, I appreciate the patience of the panel members as we 
walk across the street to do our bonded duty.
    I wanted to direct a question to Mr. Hutton concerning the 
GAO. And as we have seen, the GAO and others have highlighted 
too many longstanding challenges regarding contractor support 
to our deployed forces. Can you tell us, what further actions 
do you think are needed, and who would be responsible, or who 
should be responsible for carrying them out?
    Mr. Hutton. Sure. Thank you.
    With respect to SPOT, I think that it is going to be a big 
step, as we have said here. We have been calling for the 
importance of being able to track the use and the reliance on 
contractors, understanding what they are doing, the extent to 
which we are using contracts. I think the MOU provides an 
opportunity in this dialogue that you are seeing here for three 
agencies to get together; I know a lot of our work has been 
focused on DOD.
    So there is a chance that for the first time you are going 
to--each agency is going to be able to have a better 
understanding what the other agencies are doing in a particular 
area of responsibility. So I think there is an opportunity here 
to have improved management if the agencies are thinking right 
now as to what specific data they think they need to better 
manage their contractors, and how will SPOT provide that.
    With respect to other things, I think that--and Mr. Motsek 
mentioned earlier--you know, there is a lot of activity going 
on right now in many different areas, and one of the areas that 
we also recognize as important: You can have a database, 
hopefully to help you be more proactive, but we think it is 
important that you also focus on some of these other important 
areas.
    Somebody talked about last week things like making sure you 
have a trained non-acquisition workforce, for example. Things 
like, are we able to leverage the lessons learned and be able 
to plan and incorporate bills into our plans for future 
operations? So I would throw those out as two areas that I 
would say are things that we can continue to look to as areas 
that are very important, as well as just having a handle on the 
database.
    Mr. Wittman. Very good. Thank you.
    You know, I have heard all of you speak as you talk about 
this MOU and the things that it has brought about--talk about 
collaboration, coordination, more understanding, more 
opportunities. What I would like to get from that, though, is 
to understand what actions it has brought about. What changes 
has it brought about in things that have happened in the field?
    It is great to be able to collaborate, to communicate, to 
talk more, to understand, to look at opportunities, but what I 
would like to hear are maybe some examples, and to go down the 
panel and start with Mr. Motsek and look at giving us examples 
of where the MOU has actually resulted in things that happened 
that would not have happened without the MOU.
    Mr. Motsek, we can start with you.
    Mr. Motsek. Well, I would just premise my remarks by saying 
we don't look at the MOU by itself, but as Mr. Hutton said, in 
a broader context of everything else we are doing. The 
dialogue, for example, that Mr. Moser and I have started with 
our memorandums of agreement and private security contractors, 
and the MOU was a natural outgrowth of that. So from a 
practical standpoint, the--we actually have in place a process 
of negotiation and discussions on a routine basis to make 
things happen.
    As a practical example, when in Iraq we knew that we were 
going to lose immunity for our contractors in Iraq, State 
Department and DOD did not operate in isolation of each other, 
we collectively, jointly held meetings with our contractors.
    I hosted the meetings in Washington for our contractors in 
the morning; Will attended with me. I went to the State 
Department. I attended his meeting. We agreed that we would 
have one database--or, excuse me, one website where we would 
post all the relevant documents for both sets of contractors so 
we would stay focused and fused as we went through the process. 
And I would argue that has been very, very successful. So that 
was a small example.
    The fact that we started in DOD exercising the JCASO 
concept, and the State Department, on our first exercise in 
European Command (EUCOM)--which is a good place to practice 
these things, in European Command--had about five people there 
to more or less observe the process.
    In the exercise that is coming up, I believe it is called 
Austere Challenge, this fiscal year, State Department is coming 
in full-blown. They are going to play it as a participatory 
partner so that it doesn't affect what is going on in Iraq and 
Afghanistan today, but that is this predictive and this future 
context that we are operating in where we have learned hard 
lessons from our lack of synergies in the existing operation 
and we are building an entire exercise program where we are 
playing together in the same sandbox as we go through it.
    And that, in my mind, has been extraordinarily successful. 
And my combatant commanders--DOD's combatant commanders have 
embraced this dramatically. I mean, they see the value of 
starting at the joint exercise level with our agency partners, 
because unless you do it in an exercise, it becomes too 
ethereal when you have to do it in practice.
    Mr. Moser. The one additional one that Gary did not mention 
is that I think that as a result of both 861 and 862--and even 
though I know the hearing isn't really concerned with 862, but 
I do consider them as linked areas--one of the things that we 
have now that we did not have before was an office to our 
Regional Security Office in Baghdad that is for our contractor 
oversight.
    And I think that through this--through the MOU process--we 
have gotten much tighter about the whole chain of incident 
reporting, not only just the movement coordination that is in 
861, but also about the incident reporting and the other things 
that are in 862. And that has been a much more formalized 
process, and I think the MOU helped on that.
    In reference, though, of what Gary said, and just elaborate 
a little bit more: I don't think we would have ever had such a 
successful approach to the contractors after the signing of the 
security agreement in November of 2008 if we hadn't already 
worked on the MOU and already set the foundations in the 
collaboration. And it really is a very interesting fact that, 
you know, I went around in preparation for this hearing, said, 
``Well, since we have had the loss of immunity for the 
contractors, has there been any effect on our personnel?'' 
Well, the answer is, from all my contracting staff, is ``no.''
    Well, part of the reason for that is, I think--not that I 
will fault Mr. Motsek for this--but I think he and I did, 
actually, a very, very good job in rolling this out not only to 
our contractors, but to USAID's and Justice's contractors as 
well, and I don't think that we would have gotten to that level 
of collaboration if we hadn't already done the work that we did 
with the series of MOUs. I think that one led to the other.
    Ms. Shauket. Thank you. I agree, and especially as it 
relates to the incident reporting. We have definitely had 
lessons learned on that; we have collaborated and we have a 
much improved system for that now.
    For USAID, it really has expedited our letters of 
authorization (LOA), as I have mentioned. Prior to that, we 
received Common Access Cards (CAC) and it was a very cumbersome 
process, and we didn't understand how to route through the 
system to go through the embassy and DOD to get the CAC Cards 
for our implementing partners. Now that has been very 
streamlined and expedited with the onset of SPOT, so that has 
been a real benefit to us.
    Mr. Wittman. Thank you.
    Dr. Snyder. Mrs. Davis for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you all for being here. I would like to ask about 
a situation to try and see how the MOU and the changes are able 
to track this situation. In 2006, the Army Material Command 
reported that approximately $43 million was wasted on free 
meals provided to contractors who already were receiving the 
daily per diem for food. Recent reports indicated that it is 
possible that this type of waste is still ongoing.
    Could you each tell me how you determine whether or not 
contractors are receiving services for which they are not 
eligible? How do you do that? And has that improved? How have 
you corrected it?
    Mr. Motsek. Mrs. Davis, you couldn't ask a better question, 
because it dovetails on exactly what my counterpart was talking 
about. Let me set the stage: In 2006 we had, at last count, 
that I could count, we had 192 separate letters of 
authorization floating out there--types of letters. Everyone 
was authorized to sign anything to tell a contractor that you 
were entitled to the moon, as necessary. We had no standards of 
medical support; we had no standards of health care; we had no 
standards of housing, if you will. We were really pretty much 
out of control.
    Under our program--and we all play in the same sandbox 
now--if you are issued a letter of authorization, which you are 
not going to get on a military aircraft in the area of 
responsibility (AOR) without it, it is a standardized format 
which your contracting officer controls the input. You only 
have certain options that you can authorize.
    If you are a general contractor, you are only going to be 
entitled to resuscitative care, for example. If we are going to 
provide meals for you, it will be listed as meals. And the 
letter itself--Chairman Snyder has a copy of one in his book--
has a barcode on the bottom. You can actually scan the letter 
as if it was your ID card.
    So I will be blunt with you: I don't care whether you are 
authorized to eat in my dining facility or not. What I do care 
is that if it is not part of your contract to be fed in that 
dining facility, that I have a process that I can bill you. I 
don't care, frankly, whether or not we gave you more medical 
care than basic resuscitative care in our medical field, but 
you have to be able to register into our system so that we know 
what we gave you so that we can bill you in the future. So that 
is the issue.
    The second piece of your question is that until we had the 
centralized database or data source, we literally had incidents 
where, for a variety of good reasons, people were entering and 
exiting our facilities on an access card of some sort, but the 
access card dates were not necessarily tied to your contract 
dates. And so you may have been given your access card on a 
calendar year, but your contract ended on 30 October.
    In theory and in practice, you could have stayed 60 days in 
theater on our dime--the government's dime--getting housed and 
fed, looking for additional work. Now, the letter of 
authorization is keyed and becomes void the date of the end of 
the contract. So we policed that up.
    The other piece of SPOT is--as I said, it is hundreds of 
readers. We put them out already, and of course we have forced 
State and USAID to fund their own. But it is a standard barcode 
reader so we can track you where you are, because from my 
position, SPOT doesn't do its job until I can link you to a 
contract, to the execution of that contract, to a location that 
that contract is being executed. And so you have got to scan 
when you go through the process.
    Mrs. Davis. Now, are you able to go back--he was telling 
the folks who received medical care, for example, that was way 
over and above what was----
    Mr. Motsek. I don't think we will go back. You know, it is 
a start and we have had a--we have presented this to the 
medical community, and they have embraced it very, very 
quickly, because they recognize what is going on.
    You know, we are in a box where we pay for an insurance 
policy for medical care. And in practice, what we were seeing 
that we really didn't charge that medical insurance process 
unless you were evacuated from theater. So we missed what was 
happening in theater, and part of it was self-inflicted. We did 
not have standards because of the lack of standardized letters.
    Mrs. Davis. What do you hope will be the timeframe of 
tracking that and then making certain that people----
    Mr. Motsek. It is virtually ongoing right now. I mean, we 
were with the medical department folks not more than two weeks 
ago trying to finalize, making sure we have the scanners in 
process for example.
    Mrs. Davis. Do any other--your agencies, is there any 
different take that you would have on that issue, in terms of 
trying to work with it?
    Mr. Moser. Well, we are currently exploring the use of the 
readers, although the LOA, which Maureen has talked about and 
Gary as well, are actively used now. That was part of something 
that we recognized that we had to have. In fact, we were in the 
position where we were saying, ``Well, let us get to the person 
in SPOT. We know it is coming, and we will get you the LOA,'' 
but we had to kind of play a little bit of a catch up game, 
because the actual LOA process went into effect before we were 
really completely ready for it, but we got there. I think we 
are pretty comfortable with it now.
    Ms. Shauket. And then just addressing the issue of the cost 
and----
    Dr. Snyder. Ms. Shauket, would you pull one of the 
microphones in a little closer to you? Thank you.
    Ms. Shauket. And then just to address the issue of cost to 
ensure that there is not double billing, because it is 
controlled by the contracting officer who is issuing the 
letters of authorization, it is the same contracting officer 
that is writing and negotiating the contract, so they are very 
aware of the logistic support that will be provided, and if 
there is going to be that support provided, then it is not 
budgeted in the contract. And if they aren't going to be 
getting it, then we would budget for it in the contract. So we 
have that kind of control.
    Mr. Motsek. If I may add just one more thing, I am sorry. 
You had Mr. Assad up here, I think last week; he may have 
touched on this. But one of the other things that we--what he 
has forced into the process, which is extraordinarily 
important, is that we now have contractor officer 
representatives (COR) in the theater to manage these things.
    For example, we have a COR at the dining facility. The 
contractor can't grade his own papers. The COR is there.
    What Mr. Assad has forced the process into is the 
contracting officer must now certify the training of his 
contractor officer representatives. Before it was just an 
additional duty; if we found you were a warm body you went and 
did it. Now, the contracting officer, as a direct link, must 
certify the training of his representatives in the field. That 
is an extraordinarily huge change from where we were just a 
couple years ago, and it will pay off in the future.
    Mrs. Davis. Thank you.
    Dr. Snyder. I know you all have been here a while because 
of our votes, but we are going to go around another time or 
two, if we can.
    I wanted to ask--you all seem to have a pretty good 
attitude about this congressional mandate to do this, that it 
has been productive when you see it going as walking and 
running--or crawling and walking, I believe was your metaphor, 
Mr. Motsek.
    We are now what the sixth--it has been six years in Iraq 
and seven and a half years in Afghanistan. Why does it take so 
long? Why does it take some kind of congressional mandate to 
say, ``Can you all sit down? You know, you have got people 
running around the same areas in a very dangerous situation.''
    Why does it take a congressional mandate, because you--and 
of course, Mr. Motsek, you set yourself up for this question 
because one of your specific things is, ``We urge Congress to 
let both of these efforts,'' referring to the Joint Chiefs of 
Staff task force on dependence on contractors in contingency 
operations and the Commission on Wartime Contracting started by 
Congress, you say, ``let both those things run out before we 
develop future statutory direction,'' which I think is not 
unreasonable. But in fact, it was a statutory direction that 
has you saying fairly warm and fuzzy things about being forced 
to collaborate with each other. What is going on in your all 
three's respective organizations that this didn't happen by 
itself five, six, seven years ago?
    And Mr. Hutton, I will let you at some point respond, too.
    Why don't we start with you, Ms. Shauket? [Laughter.]
    Well, the reason I want to start with you--I actually think 
DOD--I don't know about Mr. Motsek personally--but I think DOD 
would have been receptive to other organizations coming in and 
saying, ``We need to sit down and come up with a way to keep 
our people protected, because I have got contractors in 
development running around; I want you to know where they are 
going so that they will be as safe as they can be.'' I don't 
think--that is examples of the kinds of things that could have 
occurred.
    So I am asking, I guess, to critique your own organization.
    Ms. Shauket. Sure. Well, for USAID, we are very used to 
operating in an overseas environment, but we are not used to 
operating in a contingency environment, and I think for us that 
really has been the difference, where we were working in the 
same environment as the military. Normally we would go in after 
the military had concluded their mission.
    So this has been a very big learning experience for us. 
Also, at the same time we had huge influxes of resources and we 
had a mandate to deliver results immediately on the ground at 
the time that our staffing within the organization was at 
probably its all-time low. So it created real challenges for 
us, and I think with the resources that we had we were very, 
very successful. But certainly it has been a learning 
experience.
    And as security has improved, our implementation and our 
coordination has improved also. I think it has been a real 
learning environment for us, which is one of the lessons that 
we are taking from how we operated in Iraq to see how we can 
apply those lessons in Afghanistan even though it is a very 
different environment for us.
    Dr. Snyder. Mr. Moser.
    Mr. Moser. Well, I will say that Mr. Motsek and I actually 
met in July of 2007 for the first time in a meeting that we had 
in the Office of Management and Budget (OMB), and we were 
talking about some kind of joint database in order to do 
accounting for contractors, because those of us who take these 
issues about contractor accountability very seriously were very 
much seized with it. But I must say that in the pressure about 
the war and in the effort and the immediacy, you know, the 
administrative details, or the contract oversight, that we all 
feel is very essential is not exactly on our policy--on our 
senior policy officials as always the top uppermost in their 
mind.
    Dr. Snyder. Shouldn't it be, though, if over half of your 
money--over half of your money is spent on services contracts?
    Mr. Moser. You know, I will defer part of this question.
    Dr. Snyder. I mean, it is not just, like, a waste of money. 
It is somebody needs to pay attention--do you actually get--is 
there actually water in the bottle----
    Mr. Moser. Dr. Snyder, I will say this. I will defer part 
of that question to Gary, but I will tell you this. We have a 
big--you know, State is very different from DOD because of the 
size of our operation, and I will give you an example, and I 
actually have--I am in very frequent contact with the Wartime 
Contracting Commission, and this is what I am told from them: 
``You know, we actually do contingency contracts all the time. 
State Department does them all the time because we have 
emergency situations all over the world all the time.''
    So contingency contracting, you know, the developments on 
this, I told the Wartime Contracting Commission, it is like 
``Contingency Contracting Are Us,'' to use a grammatically 
incorrect phrase, because it is something that my contracting 
authority does. But let me give you an example of one of the 
big ones, which was evacuating the 13,000 people from Lebanon 
in 2006. You know, that was a contingency contract; didn't 
involve any shooters from DOD or any military personnel on the 
ground, but was a huge effort.
    We do relief efforts all of the time. We evacuate people 
from other countries all of the time. Some of these only make 
the papers for a couple days. So that is not anything unusual. 
As Maureen said, we only had--we have not had this scale where 
we have been involved with DOD on the field, and it is a 
different thing.
    But in regard to your more specific question about why you 
should have been doing this, this is where the real distance is 
for me in DOD. All of my contracting officers that do the major 
contracts in Iraq sit three floors below me, and if I need to 
talk to them I go down and see them, or they come and see me.
    So the contracts that we have for personal security, or the 
contract staffs that built the embassy in Baghdad, all of those 
people, I talk to these people every day. And it is a lot 
different for me, because one of the things that we have done 
to try to--to control the situation is that we actually have 
centralized that contracting authority in the State Department 
in Washington so that we could keep a better handle of it.
    Now, you asked, well, shouldn't you have account of the 
contractors? Yes, but we have small enough numbers that we 
could actually do this pretty well through manual systems. And 
it wasn't the same thing, you know--I always tell--Gary is 
always bigger. You know, I have 7,000 in Iraq; Gary has 
163,000. And so this is where we get into the differences of 
scale.
    Dr. Snyder. But Mr. Moser, it was not just, can you keep a 
handle on what everyone acknowledged would be a dramatically 
smaller number of contractors, it was, given that you have got 
those number of contractors, can you work with--is DOD aware of 
where they are and what they are doing to keep them safe? And I 
don't think--is that where we are----
    Mr. Moser. Well, I think that that is a fair comment, 
Congressman Snyder. I think that that is a fair comment, but we 
could have been better on this.
    Dr. Snyder. Mr. Motsek or Mr. Hutton, any comments you want 
to make?
    Mr. Hutton. I would like to, if I could, first mention, you 
know, you asked a question about why does it take legislation, 
and I personally think--I have been in this town for a few 
years--that it often takes legislation to put a real sharp 
focus on something.
    Some of these issues we are talking about today GAO has 
been reporting on. For example, one thing we were looking at 
was, you know, with respect to DOD, should there be a--you 
know, there should be a DOD focal point to help execute a lot 
of these policies and bring them up to Deputy Secretary Lynn to 
make sure that people are doing the right thing.
    I think Mr. Motsek, in that position right now for the last 
couple years, we see some of that muscle and we see some of 
that direction. But I do think sometimes it comes from the 
outside to put some focus.
    And I would like to react to something Mr. Moser said, and 
I think you were just touching upon it from the way I look at 
it, Dr. Snyder, was that, you know, while the agencies have 
their own individual contracting operations, the key here, in 
my mind, and where maybe the MOU is going to get people 
talking, is that we have got to take a focused, interagency 
approach to a lot of these things. We have more than one tool 
of statecraft to execute a mission.
    And I think that the fact that we are sitting here, and I 
think this kind of oversight hearing, quite frankly, puts a 
little extra energy into the focus again on the importance of 
this issue and getting the agencies to get together and talk 
about their needs, their requirements, and hopefully finding 
the database that fits each other's needs, but one that is 
going to allow them to be proactive in their management, and 
not just reactive all the time.
    Mr. Motsek. I am going to probably echo much of what you 
have heard. Interagency process hasn't been as effective, 
probably, in my tenure as I experienced it earlier in my life 
when I was a serving officer. I frankly saw it better in those 
days.
    So, to be blunt about it, you need a catalyst to make 
something happen--you either need a crisis or a catalyst to 
make something happen. USAID was absolutely correct: All of our 
plans, all of our mental focus, all our processes up to this 
one was sequential in nature. Win the war, let USAID come in 
and do their thing, because we are gone. That did not happen. 
We were operating in parallel lanes with agencies and 
departments with their own criterias and focus, so it was--the 
fact that we didn't fight the way we ever planned to doing 
something, or we didn't go through the reconstruction as we 
planned.
    The size of the operation was beyond anyone's focus. No 
one, in I don't think any of our departments, would ever have 
extrapolated the numbers that we have in the theater today, and 
to be blunt about it, DOD had their own problems managing 
contractors--our own contractors. We would probably be 
generally reluctant to take on what we would perceive as a 
management responsibility for someone else. So there is that 
inertia inside of our own bureaucracies that would state that.
    For us, two things happened: We had a meeting at OMB in 
2007, and then we had our private security contractor issue 
that blew up between State and DOD. And those two things were 
the catalyst that literally forced us together, and we--since 
that point in time, I have got to tell you, it has worked well. 
So from my perspective, the MOU was a continuation of what we 
were working----
    It put some bounds on us, by the way. You know, it gave us 
some focus. I am not against more legislation, by the way; it 
is major legislation that I am worried about because we, quite 
frankly, have been running nonstop trying to implement what we 
have been directed, and we really haven't had a chance to get 
our--to catch our breath. We almost need an operational pause 
so that we can collectively do what we think we have been told 
to do up to this point, because the GAO is absolutely correct: 
We are grinding through this stuff, but no one is every happy 
with the speed that we grind through it.
    Mr. Moser. No. And I think that that is fair. And as Gary 
said before, we do--we are all three involved with the Wartime 
Contracting Commission, and we really do want to see them take 
a more reflective approach, and one thing that the three of us 
have already discussed is that we really do want to use what we 
have done in Iraq and really make that instructive; in other 
words, to not repeat in Afghanistan--when we have a build-up in 
Afghanistan, to not make some of the mistakes that we did make 
in Iraq.
    And I think that you try to take advantage of where you had 
problem areas in the past, and GAO has been helpful in that 
process as well.
    Dr. Snyder. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    I think those are interesting points, Mr. Motsek and Mr. 
Moser, that you bring up, and that you point out that with the 
speed under which things have been pursued, that it would be 
nice to slow down a little bit and kind of figure out what is 
happening and to be able to learn from that. With that, do you 
see a need, then, to do sort of a comprehensive reevaluation of 
the use of contractors for contingency operations?
    And look at that standpoint and then, Mr. Motsek, you 
talked about sort of the hesitancy about legislation, but I 
pose this question: Do you think there may be the need--if you 
have a chance to go ahead and reevaluate or look at what is 
going on, what is working, how these pieces are coming together 
from previous legislation--do you think that there might be a 
need for legislation or policy changes that might be needed to 
facilitate or improve the management and oversight of 
contractors in these contingency operations?
    Mr. Motsek. Well, I can't disagree fundamentally with 
anything that you said. The challenge that we have is, inside 
of DOD, is that the secretary has directed the chairman to do 
an in-depth analysis. In other words, we are where we are, and 
we have three sources--we have three fundamental sources of 
resources to do any mission in the battlespace: We have our 
military force structure, which is set by rank, by number, by 
everything; we have a government-civilian workforce, which is 
capped at a particular number; and then we have the contractor 
side of the house, which is flexible, to be blunt about it, 
because it is resource-driven.
    My argument to you--or my discussion with you--is that we 
do a heck of a good job working the military piece. We are Nth 
degree detail. But what we have not done to the same fidelity 
is work the DOD-civilian piece--the government-civilian piece--
which has still remained out of focus when we have about 9,000 
of those folks sitting in Iraq, and the contractor piece. We 
are where we are because of the force structure requirements 
that were placed upon us.
    So the chairman is trying to take a clean sheet, saying, 
``Based upon all the missions that the department has, based 
upon the requirements and log, based upon a variety of 
requirements, what do I need in each bin?'' And what will 
eventually happen is that you will do as much as you can in the 
military bin, then you have to default to the other two.
    What I have urged and the DOD comptroller has embraced is 
that we ought to be doing this in DOD in the Quadrennial 
Defense Review (QDR) process. Now, we do a Quadrennial Defense 
Review where we are supposed to be looking at these big 
resource issues. And we said in our national defense strategy 
that we had three components to our force: military, civilian, 
and contractor. And yet, we have always concentrated on the 
military piece.
    And to my astonishment, and I am very pleased to see, the 
new comptroller said, ``No, we have got to look at the other 
two pieces as well as we go through the QDR process.'' So he is 
championing that on, frankly, Acquisition, Technology, and 
Logistics' (AT&L) behalf, and I can only applaud that.
    So that is a major step. I will tell you that we probably 
would not have had that step had we not had the 861 MOU in 
place, had we not been engaged, had I not prepped him for his 
testimony for his confirmation hearing about these issues. 
Something took, something engaged him, and there can be only be 
goodness, in my mind, coming out of that.
    So I agree 100 percent, but at the end state, it ends up 
being a resource-driven exercise, whether you like it or not.
    Mr. Wittman. Mr. Moser.
    Mr. Moser. I think that we are going to continue to need 
contractors to handle contingency operations. We don't know 
where they are going to come; we are better off now than we 
were at the beginning of the Iraq conflict because we now have 
our Office of Crisis Response and Stabilization. That is an 
institution within the State Department that is, in the future, 
supposed to coordinate the interagency platform and try to do a 
better job to address these issues, so that part is there.
    But I will tell you, Mr. Wittman, that basically there are 
a lot of--the functions that we are having the contractors do 
in Iraq right now are not the ones that we really want our 
diplomatic core to do. And basically, we see that being the 
same in any kind of operation like this in the future. And that 
is not a bad thing. That is not a bad thing, but given, you 
know, the will of the administration and the will of Congress, 
we will have to use contractors to supplement things that are 
not part of our core workforce.
    Mr. Wittman. Mr. Hutton.
    Ms. Shauket. For USAID, we have our contractors and 
grantees as a core part of the delivery of our mission. We 
don't actually implement the programs ourselves, but we have 
our partners implementing our programs. If we were to do away 
with the contracts, we would have to fundamentally shift the 
way that we are resourced as an organization so that we would 
have the direct hires to be able to implement those programs.
    Right now, we have 10,000 contractor and grantee employees 
in Afghanistan, and we have over 4,000 in Iraq. So it has been 
a fundamental shift in resources for us.
    Mr. Wittman. Let me ask just your thoughts: Do you think 
there are things that could be done to improve the management 
and oversight of those contractors in these contingency 
operations, just from your experience?
    Ms. Shauket. Well, certainly we have learned a lot. 
Oversight has been a challenge in areas where Americans cannot 
go. We have learned a lot from that; we collaborate very 
closely with the military on the oversight of our programs.
    We have instituted contracts to do monitoring and 
evaluation. We work very closely with the Inspector General's 
Office to try to ensure that we are covering our bases and that 
we are doing due diligence with the taxpayer funds.
    Mr. Hutton. Thank you. You are right, contingency 
contracting and the issue of getting visibility on the use of 
contractors--the controller general in the past has talked 
about, you know, looking at even broader than that for an 
agency, the use of contractors. And, you know, it is really, as 
we are talking about all these service contractors, they are 
all a lot of these individual decisions. You know, where is 
that strategic look?
    And, you know, things such as, you know, to what extent are 
we using them? What are we asking them to do? How are we using 
them?
    Is that where we want to be? If that is not where we want 
to be, then how are we going to get to where we want to be, in 
terms of use of contractors?
    We talked about the total force in many different ways 
here, I think. You know, I keep my ears pretty sharp when I 
hear discussions talking about how agencies accomplish 
missions, and the word I am always waiting to hear is do I hear 
the word ``contractors''? And I would think that as you have 
your oversight hearings, that is a little thing I do for myself 
just to see if it is ingrained in the thinking.
    I do think that we are seeing more and more discussions. I 
think the opening comments, we talked about, yes, we are 
reliant on contractors, so we have to think about them. And how 
do we better manage them, and are we using them the way we need 
to use them? Are we, you know, protecting overall the 
government's interests?
    So, I think, you know, GAO in the past, while this is a 
huge important issue here, we have also talked even broader. 
Not just DOD, but other agencies.
    Dr. Snyder. Ms. Shauket, you, in your written statement at 
least, mentioned a couple times from the perspective of you and 
USAID, you see dramatic differences between Iraq and 
Afghanistan. I need you to explain that to me.
    Ms. Shauket. Well, in terms of the support that we receive 
from the military, when we are working in Iraq, then we are 
relying a lot on the military for movement of personnel and for 
tracking of personnel, and initially we had the cafeterias that 
everyone was going into. In Afghanistan it is very, very 
different. Our contractors are out in the local communities; 
they aren't behind any walls. And they are working in some 
areas where there is no military presence. So it is really a 
very different environment for us.
    Dr. Snyder. Mr. Motsek, I might have told you this story 
before. In my office we call it the story of Barney the 
contractor. Barney is one of my constituents--Barney Morris. 
And in fact, he wrote this op ed about this incident, but I 
wanted to describe this incident that occurred.
    He gives me credit for it, but my only credit was I managed 
a--I was able to manage my congressional office in such a way 
that we paid the phone bill and the phones kept operating, 
because that was my only role in this. But this was back in 
2004. It was a Friday afternoon. My staff member--I was back 
and had headed for the airport, but my military legislative 
assistant happened to answer the phone, and it was Barney's 
girlfriend in Little Rock saying she had just gotten an e-mail 
or some kind of a message from Barney in Iraq, and her feeling 
was that he was really in trouble.
    And he was a contractor, was in a sector that was 
controlled by Ukrainian troops, the al-Sadr forces were 
attacking them, and she implied--I think she actually thought 
he was calling to say goodbye, that it was not going at all 
well. So my staff member picked up the phone that I helped pay 
the bill on, because I am a member of Congress--just teasing; I 
didn't have anything to do with it--he picked up the phone and 
called the local Coalition Provisional Authority (CPA), and it 
wasn't very long at all before a call came back and the answer 
was something like ``Congratulations. You just called in an 
airstrike,'' which goes back, I think, to the Haiti operation 
where somebody found a payphone to call an airstrike.
    But in fact, what happened, Barney feels very strongly that 
because of that communication, that a couple hours later a 
couple of helicopter gunships went in and we were able to 
protect them until the next morning they got them out. That is 
a really shabby way to run a war. They couldn't convince people 
that there was a problem in the Ukrainian sector.
    So my question is, given what has occurred now, do we feel 
better about the possibilities that our contractors are safer 
in Iraq and Afghanistan because of the communication and 
collaboration that you all are doing?
    Mr. Motsek. I can't talk about Barney.
    Dr. Snyder. I understand. And he would be embarrassed that 
I am talking about him.
    Mr. Motsek. I commend his initiative, by the way, but I 
can't talk about Barney. But let me talk in a more general 
context from our perspective in 2004. The best way I can put it 
is, I met with the third Division Support Command (DISCOM), 
regional support command commander. He has a--at that time, 
under the organization of the Army, he had about 8,000 troops 
under him and he was part of the initial fight in Iraq.
    And one of his comments to me--and this is when I still 
worked in the Army--was, ``You know, your Army supported me 
great; they did a wonderful job. No one told me that by the 
way, besides my 8,000 troops I had another 4,000 contractors I 
was responsible for from day one.'' He did not know that, and 
of course now it is a 50-50 ratio.
    So during Barney's time, I will tell you that we, as a 
department, didn't do a very good job teaching our leaders, 
because frankly, we were every bit as surprised at the numbers 
that showed up in the battlespace. And we shouldn't have been 
surprised, because Bosnia has always been a 50-50 ratio, so if 
we had extrapolated off of Bosnia we might have known better.
    So going back to what Mr. Moser had said earlier, the 
lessons learned pieces is probably the most critical piece. 
Today, there is not a brigade commander that hasn't been there 
before, does not understand that he has the responsibility, 
from a force protection issue, of not just military but x-
thousands of civilians and government employees. And that 
includes our other agencies, because on the ground they have 
broken that code.
    We try to institutionalize that training, because this is 
not the school of hard knocks. We got the Military Education 
Coordination Council, which handles the joint training 
requirements for the chairman, to make this a special area of 
emphasis. So now, in other words, when the chairman goes out 
and reviews the schoolhouse of the departments--the services--
one of the areas he is going to be looking for is, are we 
training our future leaders--our future brigade commanders, 
future wing commanders and the like--about the responsibilities 
of managing these contractors on the battlespace?
    Joint Forces Command today stood up an online program for a 
pre-deployment course, which is a direct outgrowth, by the way, 
of the GAO's criticism of us for not having adequate pre-
deployment training for these folks institutionalized. There is 
now an institutionalized course that is out there; it is riding 
on the Joint Knowledge Online program, so it is behind the 
firewall, but it is there and it is processing that.
    So in 2004, we had not, as an institution, taken our hands 
to understand the responsibilities associated with everyone in 
the battlespace. That is changed today. We have learned that 
lesson; we have learned it the way you would see it in the hard 
knocks, quite frankly.
    Dr. Snyder. Mr. Wittman?
    Mr. Wittman. Thank you, Mr. Chairman. Just to follow up on 
that, I think it is interesting that, you know, you all have 
pointed out that obviously Iraq and Afghanistan are two very 
different places. We have learned some significant lessons in 
Iraq. Obviously we are having the challenges in Afghanistan 
unfold in front of us.
    The question is, the lessons that we have learned in Iraq--
how translatable are they to Afghanistan? What are the 
challenges that we will face in Afghanistan? And can we 
anticipate how to overcome those challenges based on knowing 
some of the challenges that we have been through in Iraq?
    Mr. Motsek. If you don't mind, I will go first very 
quickly. Just one example: As you know, we have created the 
Joint Contracting Command (JCC) that sits in Iraq to manage 
contracting across the area of operation. Central Command 
(CENTCOM) is in the process of making a final decision to move 
that. The value of the Joint Contracting Command, which we, by 
the way, have institutionalized in our--so he has already--
CENTCOM is already changing the force structure of those folks 
that manage contractors, and they are weighing the fight in the 
Afghan location--the contractor fight, if you will.
    That will probably mean--in fact, I can't say with 
certainty, but I am pretty certain--that the flag of that 
headquarters is going to move. It is going to move. General 
Petraeus clearly sees the value of that. He developed a very, 
very good working relationship with the commander of JCC. It is 
another good example where Congress has done something and we 
were kicking and screaming, but we did it, and it turned out to 
be the right thing.
    In Section 854 in 2007, you said that you have to have one 
flag or general officer responsible for contracting in the 
region, and that guy has to report to the combatant commander. 
He doesn't report to the chief of staff; he doesn't report to 
the J-4; he reports to the combatant commander. Based upon what 
I see now with General Petraeus, I mean, he has embraced that.
    You had General Scott here last week; Admiral Dussault, who 
was his replacement, just came back a few weeks ago. I mean, 
they are in the hip pocket of the combatant commander. That 
would not have happened, I am certain, had we not been mandated 
by law to do that. So that, you know--I can whine about being 
told what to do, but the reality is, there have been some good 
things that come out of it.
    But that simple shift to Afghanistan is happening, and we 
are not waiting for the numbers to change, we are shifting in 
anticipation.
    Mr. Moser. I think in two very important ones. You know, we 
have major programs with our International Narcotics and Law 
Enforcement Bureau (INL) in both Afghanistan and Iraq. There 
have been problems early on in the Iraq conflict about 
oversight problems. There was a 30-position staff-up in INL 
staffing. Mr. Bowen, the special inspector general, has pointed 
out the swimming pool that was built incorrectly under a 
contract. I can guarantee you those kind of mistakes will not 
be repeated because people in the State Department have really 
taken the contract oversight part of that very, very seriously.
    I will give you another example: Our whole relation to 
private security contractors in Iraq, and if the function does 
plus-up in Afghanistan, it is getting tighter and tighter. 
After the Nisour Square shooting in 2007, Mr. Kennedy, 
currently our Under Secretary for Management, did an extensive 
report about how we increased the oversight of these 
contractors. That report's recommendations have been pretty 
much wholly implemented, or we felt like that the reason for 
implementation had been overtaken by events. And you are going 
to see that kind of focus.
    Now, to get to one that is important to me, because I 
really do care about this stuff, I am going to make sure as we 
ramp up in Afghanistan that we count every vehicle and every 
piece of capitalized property that the contractors hold, 
because I am tired of getting a tough time from my external 
auditor about contractor-held property. Now, those are the 
kinds of things that are really important to me because those 
are things that I am directly accountable for. And so yes, I 
think I have learned my lesson and I want to make sure I don't 
get in trouble again.
    Mr. Hutton. I think we have heard some good examples of how 
lessons learned are--at least we are thinking about 
Afghanistan, and we now have some operations and things in Iraq 
that we can maybe transfer. But the thing that I just want to 
at least put out on the table--and this is something I observed 
early on, first there in 2003 in Iraq--was, you know, where we 
make sure that we have sufficient numbers and sufficiently-
trained contracting people and the oversight people.
    When I was doing the work in Afghanistan back in 2004, 
2005, one of the things we found was that--I believe it was 
USAID contracting officers--when you just look at the dollars 
that they had a manage of the contracting officer, per person, 
they were huge. Now, that is not a great metric, but it at 
least gives you some insight as to the workload. The thing that 
you want to avoid is having so few staff that you end up doing 
these quick, urgent, and compelling type contracts where you 
don't have sufficient time to do some decent acquisition 
planning and get a little competition and things like that.
    So I would just, as we are perhaps putting some more 
emphasis in Afghanistan and we talk--we have heard about some 
of the new initiatives, and I think they are all in a positive 
direction, I would be looking to see, well, how are we doing on 
just the sufficiency in the trained contracting and non-
contracting personnel.
    Mr. Wittman. Ms. Shauket.
    Ms. Shauket. I would agree. For us it is really an issue of 
resources, and the amount of our staff that are working on the 
Afghanistan and Iraq programs has been significant.
    I think a difference was when we first went into Iraq we 
had staff dedicated both in the field and in Washington to just 
issuing all the contracts. Contracting officers around the 
world pulled together to do that.
    We can do that in the short term; it is very hard to do it 
in the long term. Right now we have the seven contracting 
officers, five in Kabul, and we have additional contracting 
officers supporting out of Thailand. But we need more resources 
in order to be able to do this right, and we need more and 
better-trained contracted officers, technical representatives, 
as well.
    It is a very different environment for us and for our 
partners when we are in Afghanistan. We have had 407 of our 
contractor personnel killed in Afghanistan compared to four in 
Iraq. That is a significant number.
    The challenges for us are very, very great there, and we 
need to recognize that we continue to try to compete to bring 
in new organizations, but there are very few that are going to 
be operating in those environments. And so we need to ensure 
that we have the resources to do the proper oversight.
    Mr. Wittman. That is very, I think, timely. I know that 
Secretary Clinton is at a conference talking about aid to 
Afghanistan and Pakistan. In fact, her comments just yesterday 
are, ``We are going to have a concerted effort within the State 
Department and USAID to reform the process.'' She also said, 
``I am very committed to it. I know that it is a challenge 
because we are dealing with decades of practice.''
    So it does seem as though there is an acknowledgment there, 
and a real emphasis on making sure that that part of the 
process gets the kind of attention that it deserves. So I 
appreciate what you all are doing to bring all of the different 
pieces of this together. I think it is a Herculean challenge at 
best, and I appreciate the efforts that you all are putting 
forth.
    And, Mr. Chairman, with that I will finish my line of 
questioning.
    Dr. Snyder. Thank you.
    Mr. Motsek, and we talk about--you are not interested in 
major pieces of legislation, and Congress would understand 
that. For each of you, including Mr. Hutton, what do you need 
from us? In fact, why don't we start with Mr. Hutton, just to 
change the order here?
    Mr. Hutton. Well, quite frankly, I can't think of any of 
our work right now where we have been pushing Congress with one 
of our recommendations or matters of consideration. I think 
this type of forum and having this type of dialogue, getting 
folks up here talking about what they are doing and bringing 
some light--good questions that we are getting here--this type 
of oversight, I think, helps keep pushing it along.
    You know, the thing I want to guard against is that maybe 
some of the positive steps we are taking aren't because of the 
personality-driven. I want to make sure that there is processes 
in place and there is going to be something sustainable about 
it.
    And I do think there has, over the last couple years, based 
on the work that we have done, there has been some pretty big 
steps here, and I mentioned some of them today, but I think it 
is no time to kind of take our eye off the ball, and I think a 
forum like this is a very productive thing.
    Dr. Snyder. Ms. Shauket.
    Ms. Shauket. Well, you have recognized that we are 
different than our colleagues here at the table with us. USAID 
is a very small organization. Our resources are limited.
    We appreciate the understanding that you have had in 
realizing the challenges that we have had to implement the SPOT 
system. We will continue to devote ourselves to it, and we are 
committed to it. And we appreciate your continued patience as 
we do resource in order to be able to meet these objectives.
    Dr. Snyder. Mr. Moser.
    Mr. Moser. Congressman Snyder, I think that the main thing 
that I would ask you for is that we would appreciate Congress' 
continued interest in these issues, because if--you know, we 
have our own budgetary process which goes to OMB and the 
President, and we definitely respect that, but we do want to 
make sure that the whole issues about contractors and how--our 
relationship to contractors and how we use them effectively. It 
continues to be a talk that Congress is involved in, because we 
really do need that input, I think, from Capitol Hill, in order 
to make the best decisions--the best decisions for the U.S. 
government.
    Dr. Snyder. Mr. Motsek.
    Mr. Motsek. Sir, actually, he means legislation.
    Mr. Moser. He always does.
    Mr. Motsek. Four areas, sir. One is resourcing. The dollars 
and the resources that we are talking about with all the issues 
we have laid on the table with you are very, very modest. But 
because they are so modest, they get lost in the noise of the 
big department. So unless I have someone here providing eyes on 
the target and making sure that we are adequately resourced, we 
are going to have a challenge.
    Virtually everything we have done up to this point has been 
funded via supplementals because that was the fastest way of 
doing business. We have to be able, and we need your help, to 
get that transition into base budget language and base budget 
resourcing.
    The second issue is the threshold that we report things. We 
talked about in the MOU, it is $100,000; there is actually 
other pieces of legislation that talks about $25,000 threshold 
to put things into the system.
    Dr. Snyder. $100,000 was not by statute, correct?
    Mr. Moser. No, it is actually in the statute.
    Mr. Motsek. It is in the statute. I believe it is. I know 
it is in the MOU, so I----
    Let me just say it is in the MOU. What I would say is that 
we have talked with staff up here before in both houses, and 
realistically, that is an--the $25,000 is clearly unobtainable. 
There is too much churn.
    What we have proposed and we are going to ask is for some 
help to raise that threshold to $250,000, 30 days or less, 
because otherwise there is a churning, and most of that work is 
really more vendor deliveries than it is actually hiring of 
contractors. And that churn will let us become more accurate 
with what we are doing.
    Third thing we need a little help on is on definitions, 
because in different parts of the statutes, when we talk about 
contractors, are you talking about contractors with a bona fide 
contract? Are you talking about Cooperative Research and 
Development Agreements (CRADAs)? Are you talking about grants?
    We need consistency across the board so we understand 
exactly what we want to measure. We know what we want to 
measure, but when you go into the interdepartmental side of the 
house, we need some sort of standards.
    The last thing I would ask you to consider is--and we have 
talked around it a couple of times--is that you are talking 
about the ``big three'' inside of the area of operation, but we 
are not the only agencies with folks in there. So it may be 
wise for you to police up the other agencies and say, ``You 
know, you ought to be reporting your numbers as well.''
    We have got to defend them; we have got to feed them; we 
have got to protect them in Iraq, and they are in the 
battlespace in both locations, so you may want to consider to 
pick up those 240-plus Justice Department contractors that are 
out there, by directing us to do that. Because again, it took 
statute to force into the MOU. I can't speak for the rest of, 
you know, the government, but I suspect it is going to require 
the same thing to piece it--to pick up the smaller pieces.
    Dr. Snyder. Mr. Wittman, are you--do you have any further 
questions? I have a couple more I wanted to ask.
    Mr. Hutton, how accurate is SPOT?
    Mr. Hutton. I will answer it this way: Right now SPOT has 
the capability to bring in different data. For example, a year 
ago they couldn't track SPOT casualty--contractors killed. 
There is a capability now, but it is not live yet in terms of--
I think there just might be starting to populate----
    Mr. Hutton. Right. But I am talking across the board for 
all three agencies, so I think that was a big change.
    Some of the contracting information, they are now--I think 
they now have the capacity to bring in some data through the 
federal procurement data system. I think that is something 
that, if you were to look into it right now, I don't think you 
would see it fully implemented in that way, but I think you 
have the capacity and the capability to do it right now.
    Our work last year and this year, where we have been 
required to identify the number of active contracts, dollar 
values, descriptions of the contracts, number of personnel in 
the areas of responsibility that we are talking about, Iraq and 
Afghanistan--as we are doing our--last year SPOT wasn't going 
to get us there; this year SPOT is--right now it is not going 
to get us there because it is just not ready yet.
    Hopefully it will be when we get around to our third year, 
because it is pretty data-intensive for us. It is basically 
casting out a large net. DOD has given us multiple spreadsheets 
and things like that for information. USAID, I think last year 
a lot of it was manual, State as well.
    So right now I don't think I could go to SPOT and be able 
to report on our objective as part of Section 863, but I think 
just in 1 year the capability of SPOT--and then we talked about 
the letters of authorization--that is huge, I think, because 
that is leverage, that is something that is going to--one, you 
have to have it. So you are going to get into systems; 
contractors have to put in systems. So that is a big thing.
    But I don't think right now I would say that is accurate 
enough. I think we are still going to use the census data on 
the personnel for DOD, and I know State and USAID, particularly 
in Afghanistan, you know, there is going to be the queries of 
the contractors, things like that. So I would say that is the 
current status.
    Dr. Snyder. My last question is, I think it is important to 
ask one question that there is no way we would see it coming, 
so it is going to be directed to you, Mr. Hutton.
    You were a National War College graduate in 2002, spent--
was it 10 months there, or about a year? How did you think the 
last 5 or 6 years--like, perhaps this topic today--how has your 
analysis, how has your work done at analyzing this topic, 
following this along, how has that been impacted by the 
experience you had with, I assume, probably 14 or 15 uniformed 
people, spending 10 months with them at the War College?
    Mr. Hutton. Well, it is a great question, and it is quite 
larger than that. We had a fairly large State presence, some 
USAID, very large DOD, plus some international fellows. It is 
also interesting the fact that I was there at 9/11, and it 
was--I still have a lot of those memories then, because, you 
know, we immediately started talking about what we were going 
to be doing in Iraq and Afghanistan, and it was interesting to 
watch the interagency discussions going on.
    And I think an institution like the National War College, 
where you bring people in--and I understand that even for some 
of the other things we are talking about today, we are trying 
to put more information into the service academies and things 
like that, understanding that contracts are often the way the 
government executes its mission, so we ought to be thinking 
about contracts. It is just not something that, you know, you 
don't have to manage so you don't have any insights on, and 
things like that.
    But I would say institutions like the National War College, 
where you get the different institutions talking about these 
issues, and over time I think it is getting ingrained--I mean, 
they have been doing that for many years; it gets ingrained 
into the psyche of the participants, and networks are created, 
and I think it is a very positive--one aspect, but a positive 
aspect to encourage----
    Dr. Snyder. I was out at the--several of us were--Dr. 
Fenner and some others were at the Industrial College of the 
Armed Forces yesterday morning, and one of the things that came 
out in my informal meeting with about 10 students was, they--
there, they divide them into groups of 16 and they stick 
together for that period of time, and the groups that did not 
have somebody from USAID or the State Department were very, 
very envious of those groups that did have one person, and they 
recognized the problem was this--we have talked about that they 
have a staffing issue that, you know, just don't have a float 
that you can say, ``Yes, we can send over 20 people for a year 
every year.'' You just, you can't--you can't do that, so these 
issues interrelate.
    Mr. Hutton. Dr. Snyder, if I may say, though, that 
experience--I think it is a great institution, but the best 
part of it was that I don't think I have ever been around such 
great Americans across the interagency, and it was really 
valuable to experience. And it gives you a lot of, you know, 
excitement, I think, about the type of talent that is in 
government. And I think it is just a matter of, whether it is a 
SPOT database or something else, getting the interagency 
process to function better, and I think things like that will 
help.
    Dr. Snyder. Only a person from GAO would say they get 
excited about the SPOT database. [Laughter.]
    I think what is interesting, too, and it is some difference 
from when you were there in 2002 is, there is--everyone has 
already bought into the idea that the interagency has to work 
closely together, in view of our experiences over the last 
several years. And I think that is important.
    I appreciate you all being here. I am sorry we got delayed 
on votes, and it enables me to go home and tell my little 2-
year-old boy that I spent all afternoon talking about SPOT.
    So, we are adjourned.
    [Whereupon, at 3:42 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             April 1, 2009

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 1, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 50057.001
    
    [GRAPHIC] [TIFF OMITTED] 50057.002
    
    [GRAPHIC] [TIFF OMITTED] 50057.003
    
    [GRAPHIC] [TIFF OMITTED] 50057.004
    
    [GRAPHIC] [TIFF OMITTED] 50057.005
    
    [GRAPHIC] [TIFF OMITTED] 50057.006
    
    [GRAPHIC] [TIFF OMITTED] 50057.007
    
    [GRAPHIC] [TIFF OMITTED] 50057.008
    
    [GRAPHIC] [TIFF OMITTED] 50057.009
    
    [GRAPHIC] [TIFF OMITTED] 50057.010
    
    [GRAPHIC] [TIFF OMITTED] 50057.011
    
    [GRAPHIC] [TIFF OMITTED] 50057.012
    
    [GRAPHIC] [TIFF OMITTED] 50057.013
    
    [GRAPHIC] [TIFF OMITTED] 50057.014
    
    [GRAPHIC] [TIFF OMITTED] 50057.015
    
    [GRAPHIC] [TIFF OMITTED] 50057.016
    
    [GRAPHIC] [TIFF OMITTED] 50057.017
    
    [GRAPHIC] [TIFF OMITTED] 50057.018
    
    [GRAPHIC] [TIFF OMITTED] 50057.019
    
    [GRAPHIC] [TIFF OMITTED] 50057.020
    
    [GRAPHIC] [TIFF OMITTED] 50057.021
    
    [GRAPHIC] [TIFF OMITTED] 50057.022
    
    [GRAPHIC] [TIFF OMITTED] 50057.023
    
    [GRAPHIC] [TIFF OMITTED] 50057.024
    
    [GRAPHIC] [TIFF OMITTED] 50057.025
    
    [GRAPHIC] [TIFF OMITTED] 50057.026
    
    [GRAPHIC] [TIFF OMITTED] 50057.027
    
    [GRAPHIC] [TIFF OMITTED] 50057.028
    
    [GRAPHIC] [TIFF OMITTED] 50057.029
    
    [GRAPHIC] [TIFF OMITTED] 50057.030
    
    [GRAPHIC] [TIFF OMITTED] 50057.031
    
    [GRAPHIC] [TIFF OMITTED] 50057.032
    
    [GRAPHIC] [TIFF OMITTED] 50057.033
    
    [GRAPHIC] [TIFF OMITTED] 50057.034
    
    [GRAPHIC] [TIFF OMITTED] 50057.035
    
    [GRAPHIC] [TIFF OMITTED] 50057.036
    
    [GRAPHIC] [TIFF OMITTED] 50057.037
    
    [GRAPHIC] [TIFF OMITTED] 50057.038
    
    [GRAPHIC] [TIFF OMITTED] 50057.039
    
    [GRAPHIC] [TIFF OMITTED] 50057.040
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 1, 2009

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Do you believe the language in the Memorandum of 
Understanding meets the spirit and intent of the Section 861 
legislation?
    Mr. Motsek. The Memorandum of Understanding meets the spirit of the 
legislation while respecting the different agencies' authorities and 
separate appropriations. The Department of Defense continues to work in 
close partnership with the Department of State and USAID. We have 
established a common database. We continue to align our processes where 
we are able, and where it is not appropriate to align them, we are 
ensuring that our procedures are consistent.
    Dr. Snyder. How can we verify the accuracy of SPOT? How do we move 
away from the manual census?
    Mr. Motsek. The Synchronized Predeployment and Operational 
Tracker's (SPOT) data accuracy can be validated using three different 
measures surrounding contract accuracy, completeness of contractor 
personnel records in SPOT and maintenance of vendor companies' 
contractor information in the system.
    The first way to verify the accuracy is by comparing the contracts 
entered into SPOT versus those represented in the Federal Procurement 
Data System-Next Generation (FPDS-NG). This methodology also applies to 
validating the manual census as compared with SPOT and FPDS-NG. In the 
future, SPOT will have real time services with the FPDS-NG that will 
enable SPOT to receive contingency contract information from FPDS-NG. 
Success will depend on government contracting activities posting 
contract actions to FPDS-NG within a specified time frame.
    The second way to verify data accuracy in SPOT is to ensure that 
SPOT contains the contractor records required by the Defense Federal 
Acquisition Regulation Supplement (DFARS). This is accomplished first 
by comparing the number of active contractors by contract in SPOT 
versus the manual census count. Second, we look at Joint Asset Movement 
Management System (JAMMS) scans captured in theater and ensure 
contractors consuming services in theater are in fact registered in 
SPOT. This methodology also will be applied using scans captured by 
base authorization and biometric systems that enroll contractors and 
issue cards. If a contractor receives an access or identification card, 
then a contractor record is expected to exist in SPOT.
    Third, we provide compliance metrics on companies maintaining their 
contractor records in SPOT. Companies are required to set the actual in 
theater arrival and departure dates once a deployment is created.
    Once the contract and contractor personnel information is correct, 
the manual census can be turned off. We presently estimate that two 
more cycles are required until we are confident in the ``capture'' of 
contractor personnel and so are able to turn off the manual census.
    Dr. Snyder. As the agency responsible for maintaining and upgrading 
SPOT, please provide an overview of planned upgrades to the system and 
what those capabilities will provide. How much do these upgrades and 
regular maintenance of SPOT cost? What is the plan and timeline for 
rebidding the SPOT contract?
    Mr. Motsek. Planned upgrades to the SPOT system are occurring in 
several areas to include key integrations with other authoritative data 
systems; improvements to user interface with the system inclusive of 
finalizing and fielding a robust SIPR-based business intelligence tool 
(SPAARS). By integrating with other federal data systems, this reduces 
redundant processing and data collection steps for contractors. 
Integrations improve data quality by enabling the comparison of data 
contained in SPOT with other data that is contained in authoritative 
systems. These services enable the exchange of information between SPOT 
and other requiring systems/activities. Planned upgrades to SPOT focus 
on reducing the time it takes companies and government users to input 
contractor data into SPOT. Improvements to SPOT include completing the 
``create a contractor deployment task'' web services functionality that 
would enable companies to export all required data fields from company 
owned systems directly into SPOT; expand the Letter of Authorization 
(LOA) functionality to ``bulk'' renew, revoke, modify and extend active 
LOAs; enable companies to create deployment templates that could be 
applied to many employees versus creating them on an individual basis 
today; build more defined SPOT user roles that would enable customers 
to receive adaptive roles for their agency and organization; provide 
the ability for organizations or individuals to create and maintain 
adaptive hierarchies in SPOT that would no longer require a data base 
administrator to make these changes in time sensitive situations. 
Finally, the Joint Asset Movement Management System (JAMMS) will be 
installed in additional government furnished point of service locations 
to provide tracking and audit type capability for contractors serving 
in contingency areas.
    The SPOT program's projected cost for FY 2009 is $18.5M. If 
additional federal agencies utilize SPOT to manage their global 
contractor footprint, costs would increase by an additional $2.5-$3.0M 
to support increased training, customer service, hardware and hosting 
costs. Separate from the direct cost of the SPOT program is the CENTCOM 
SPOT/JAMMS theater support consisting of 21 contractor personnel that 
help resolve contractor movement and life support issues, provide SPOT/
JAMMS training to new organizations and administer Tier 1 JAMMS 
technical support in the AOR. The theater support costs $6.2M annually 
and is funded through GWOT. SPOT is a system which was initially 
developed and fielded to meet immediate contingency operations 
requirements. Subsequently, it has grown and is now included in federal 
acquisition rules and inter-agency documentation required by statute. 
The system, therefore, must transition from a supplemental funding to 
normal base budget funding.
    The contract action for ``rebidding'' SPOT is scheduled for release 
in mid-May 2009. Expected contract award is the first week in August 
2009. This effort consolidates SPOT NIPR/SIPR, the business 
intelligence tool (SPAARS), and JAMMS software maintenance and support.
    Dr. Snyder. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act (MEJA) to private security 
contractors of all federal agencies?
    Mr. Motsek. The Department of Defense consistently has supported 
unambiguous application of the Military Extraterritorial Jurisdiction 
Act to all U.S. government private security contractors operating in a 
contingency area.
    There must be assured legal accountability for the actions of all 
U.S. contractors deployed to an area of combat operations. The 
application of the Uniform Code of Military Justice (UCMJ) and MEJA to 
DOD civilians and contractors are ways to ensure legal accountability.
    In the recent review of the Manual for Courts-Martial, the Joint 
Service Committee on Military Justice provides guidance on the 
appropriate application of the UCMJ to deployed DOD civilian employees 
and contractor employees. In essence, the punishment scheme for 
civilians is clarified for those who are uncertain how pre-existing 
UCMJ/MCM punishments would apply, and clarifies that punishments by 
courts-martial would follow a similar construct as faces civilians in 
civilian courts: for example, a penalty that is a combination of 
imprisonment (confinement) and/or a fine.
    Dr. Snyder. In your opinion, what is the appropriate vehicle to 
coordinate contracting activities across the interagency in future 
potential contingency settings? Is there room to improve interagency 
cooperation, and if so, what do you propose?
    Mr. Motsek. Based upon the groundwork we have laid and the working 
relationships we have developed in response to the current contingency 
operations, we believe that Memoranda of Understanding and Agreement 
are sufficient vehicles. To include all agencies operating in the 
contingency area, we would need specific legislative authority to 
mandate the scope of coordination to other federal agencies and to 
enforce more standardized procedures. With the increasing recognition 
by administration and congressional leadership regarding the 
coordinated application of all U.S. resources and the use of ``soft 
power,'' we believe the interagency process will be reinvigorated and 
will provide the proper senior level oversight and coordination for 
future contingencies.
    Dr. Snyder. In order for a program to become a truly enduring 
capacity within the Department, it must be included in the base budget. 
Is funding for your office's programs included in the POM? If not, is 
there a plan to migrate this funding away from the supplementals?
    Mr. Motsek. Congress has mandated several programs for which 
funding currently is not in the POM due to either the POM cycle and/or 
the determination of the Executive Agency. They presently compete for 
consideration and inclusion in base budget funding. These programs 
include:
    (1) The Synchronization Pre-deployment and Operational Tracker 
(SPOT) system--the system of record for accountability and visibility 
of contractors operating in a contingency operation. Section 862 of the 
National Defense Authorization Act of Fiscal Year 2008 required the 
Secretary of Defense, the Secretary of State, and the Administrator of 
the Agency for International Development to enter into a Memorandum of 
Understanding that, among other things, must address the identification 
of common databases as the repositories of information on contracts in 
Iraq and Afghanistan. The three agencies have agreed to use SPOT as the 
common database. OSD has partially funded this program in the FYDP. 
Additional unplanned requirements have caused a current Unfunded 
Requirement (UFR) of $4.0M for FY09.
    (2) The Biometrics Automated Toolset (BAT)--a stand alone badging 
system used to allow physical access to U.S. facilities in Afghanistan 
is an add-on requirement which integrates into SPOT in isolated 
localities. This is not funded in the current FYDP and has a current 
shortfall of $2.0M for FY 09.
    (3) Two Joint Operational Contract Support Planners at each of the 
Combatant Commands (COCOM) are authorized to act as subject matter 
experts on Operational Contract Support and provide the COCOMs with 
planning guidance for contractor personnel within their AOR. This 
effort is partially funded with internal resources and currently 
requires $3.5M to fully execute this FY.
    Dr. Snyder. Do you see a need for a comprehensive reevaluation of 
our use of contractors in contingency operations?
    Mr. Motsek. The Chairman, Joint Chief of Staff, as directed by the 
Secretary of Defense, is already conducting a thorough examination of 
the use of Department of Defense contractors in support of current 
military operations as well as a review of the range and depth of 
contractor capabilities necessary to support the Joint Force of the 
future.
    The Department of Defense is improving contractor oversight and 
management through several regulatory mechanisms both internal to the 
DOD and in conjunction with other government agencies. These efforts 
include development of new DOD Directives and Instructions and updates 
to existing regulations. The Department is working very closely with 
DOS and USAID. Several Memorandums of Agreement and Memoranda of 
Understanding are in place and efforts to develop enterprise solutions 
to broader acquisition issues are ongoing.
    Dr. Snyder. How can we verify the accuracy of SPOT? How do we move 
away from manual census?
    Mr. Moser. We are improving data quality by using SPOT ad hoc 
reports to verify accuracy of all deployments in Iraq and Afghanistan 
each fiscal quarter.
    SPOT released new functionality in January 2009 and now collects 
additional data requirements for the National Defense Authorization Act 
(NDAA) Section 861, such as categories of contractor's personnel, 
competitive or non-competitive awards, and personnel incidents. Concern 
still exists about security of inputting Iraqi Nationals into the 
unclassified SPOT database. Therefore, this information is likely to be 
incomplete until DOD has completed its classified SPOT database.
    The move from manual counts to using SPOT will be closely monitored 
by our contracting/grants officers to verify company/grantee accuracy 
of data.
    Dr. Snyder. While DOD is the system owner, SPOT became an 
interagency system with the signing of the MOU. How is the Department 
of State ensuring that SPOT meets your needs in terms of inputting and 
accessing information that can be used for contractor management and 
oversight?
    Mr. Moser. The level of cooperation between the Departments in 
implementing the MOU and establishing the SPOT database is excellent. 
The DOS is in regular contact with DOD and USAID. DOS, DOD, and USAID 
meet monthly and on an ad hoc basis to address systems and policy 
implementation issues.
    The MOU requires the parties use the DOD-managed SPOT database. The 
DOD Program manager is always available to answer questions, provide 
information about future system capabilities, assist with custom 
reports, and share ways to use SPOT more efficiently. Section VII of 
the July 2008 MOU defines DOD's responsibility for system maintenance. 
DOD is open to system improvements and customized reports for 
contractor management issues. The January 2009 upgrade of SPOT provided 
the ability to assign a uniform description of contract services 
enabling sorting data by major categories, including the number of 
personnel performing security functions. This upgrade also enabled the 
user the ability to report a competitive or non-competitive award, 
incidents of wounded in action (WIA) or killed in action (KIA), and 
other reasons for ending a deployment.
    The DOS Contracting/Grants Officers and the commercial/federal 
assistance partners will use these new functionalities for all future 
contractors and grantees input in SPOT to fulfill requirements of 
Section 861 reporting and to manage more effectively. SPOT is also 
being used as a message board for the interagency community to post 
information needed by the contracting and grants community to do 
business in Iraq.
    The DOS's Diplomatic Security (DS) recently negotiated with DOD to 
purchase 20 SPOT Joint Asset Movement Management System (JAMMS) 
scanners for installation at strategic locations in Iraq and 
Afghanistan. This will enable program managers to monitor billable 
services and daily contractor activity. DS also established a new 
position at Embassy Baghdad, the Coordinator of Armed Contractor 
Oversight, which will report to the Regional Security Officer. This 
also will help ensure compliance with NDAA requirements.
    Dr. Snyder. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act (MEJA) to private security 
contractors of all federal agencies?
    Mr. Moser. As Secretary Clinton has said, the Department of State 
needs to take a hard look at the issue of security contractors abroad 
and how they are used and held accountable, while at the same time 
recognizing that we need to provide security for our diplomats if they 
are to perform their vital mission in Iraq and other dangerous places. 
I will continue to work with the Office of the Legal Adviser to ensure 
that the Department's use of private security contractors remains on 
solid legal footing and to determine whether additional legislation 
might be beneficial.
    Dr. Snyder. Do you believe the language of the Memorandum of 
Understanding (MOU) meets the spirit and intent of Section 861?
    Mr. Moser. The MOU meets the spirit and intent of the legislation. 
DOD, USAID, and DOS have begun using a common database, SPOT, for all 
contracts/grants in Iraq and Afghanistan to comply with the reporting 
requirements of the National Defense Authorization Act (NDAA) Section 
861.
    SPOT released new functionality in January 2009 and now collects 
additional data requirements for the NDAA Section 861, such as 
categories of contractor's personnel, competitive or non-competitive 
awards, personnel incidents, company weapons authorization categories, 
security checks categories, and identification of weapons categories. 
This specifically supports the legislation's intent to coordinate 
better on rules of force for contractors in area of combat operations.
    Dr. Snyder. In your opinion, what is the appropriate vehicle to 
coordinate contracting activities across the interagency in future 
contingency settings? Is there room to improve interagency cooperation, 
and if so, what do you propose?
    Mr. Moser. It would be ideal to say that a vehicle such as the 
National Defense Authorization Act (NDAA) 2008-9, Section 861 should 
never be needed to coordinate activities across agencies. However, it 
did prove that this kind of cooperation is essential and can prove 
efficient. Many times, in contingency settings, agencies can be 
reactive versus proactive because of the unpredictable circumstance. 
However, NDAA 861 implementation will realize lessons learned that will 
be leveraged to build a contingency team among agencies beyond the July 
2008 MOU. For example, the SPOT database could be used beyond Iraq and 
Afghanistan to bring agencies together to meet other world wide 
challenges through sharing contract information in such places as 
Africa.
    Dr. Snyder. How can we verify the accuracy of SPOT? How do we move 
away from the manual census?
    Ms. Shauket. USAID, like our Department of Defense (DOD) and 
Department of State (DOS) colleagues, must rely upon USAID contractors/
grantees to enter the majority of data contained within SPOT. While 
USAID manually enters prime-award information, the USAID contractor/
grantee is responsible for updating the necessary data fields for all 
sub-awards. (Under USAID and federal regulations/guidance, USAID prime 
contractors/grantees maintain the direct business relations between 
themselves and sub-awardees; USAID maintains the direct business 
relationship with the prime contractor/grantee.)
    Currently, USAID verifies accuracy of SPOT entries associated with 
letters of authorization (LOAs). For the majority of USAID implementing 
partners who are not issued LOAs, however, verification of data can 
present a challenge. Two major data sets require verification for 
accuracy: 1) award-related information; and 2) actual contractor/
grantee personnel information. The personnel information in the system 
can be complex given the scope and type of information that SPOT 
requires. As well, concerns about listing local personnel in the system 
raise verification challenges, such as: 1) the U.S. standard of first, 
middle, and last names is not the same in the Middle East, and 2) a 
reluctance to provide personal data that could compromise the safety of 
local personnel and their families.
    USAID does not currently have a system that contains the same 
information as SPOT; therefore it is difficult to develop an approach 
that does not involve some level of ``manual census.'' A less 
cumbersome method for verifying the accuracy of the large data sets 
requested in SPOT could be to conduct random sampling. This randomly 
sampled data then could be used to formulate an ``accuracy'' score, for 
example.
    At this time, USAID must rely on verification of information from 
our prime contractors. If USAID were to take on the responsibility for 
this, a team of dedicated, full-time staff with the necessary related 
resources would be required.
    Dr. Snyder. Do you support the extension of the Military 
Extraterritorial Jurisdiction Act (MEJA) to private security 
contractors of all federal agencies?
    Ms. Shauket. USAID does not object to the extension of MEJA to 
cover private security contractors employed by civilian agencies 
abroad, provided sufficient resources are appropriately allotted to 
effectively implement any extension. If MEJA is extended to private 
security contractors of all federal agencies, USAID hopes to address 
key concerns about coordination of MEJA enforcement in foreign 
countries.
    Dr. Snyder. While DOD is the system owner, SPOT became an 
interagency system with the signing of the MOU. How is USAID ensuring 
that SPOT meets your needs in terms of inputting and accessing 
information that can be used for contractor management and oversight?
    Ms. Shauket. Since signing the MOU, USAID has worked with 
interagency colleagues to adapt SPOT to meet agency business needs. We 
continue to work through technical challenges posed by the current 
system, including terminology mismatches between agencies (which limits 
data quality) and a continuing lack of interagency HSPD-12 support 
(which slows capabilities). While the agency actively engages SPOT, 
especially in Iraq, we continue to address these issues in an 
interagency forum and with the system developer at DOD, in order to 
more fully realize the capabilities of the new system.
    Tracking of contracting/grantee personnel under SPOT is being done 
at a level that is unprecedented for this agency. For this reason, 
USAID is analyzing the functionalities and the activity tracks of SPOT 
for effective use--first in Iraq and then in Afghanistan. Once fully 
realized, SPOT functionality will allow USAID to meet the oversight 
needs as outlined in the MOU and Section 861. SPOT functionality for 
USAID will provide a capability to report to combatant commanders, 
interagency partners, Congress, and others regarding number of 
contracting personnel in contingency situations and other appropriate 
information.
    The continued and active use of SPOT (inputting and accessing of 
information), however, must be met with committed resources to hire or 
re-assign full-time staff within USAID to help manage the system. USAID 
does not require SPOT capabilities for overall contractor management 
and oversight purposes; the agency requires it to provide information 
for our interagency colleagues and meet the MOU and legislative 
requirements. As SPOT is an unfunded mandate for USAID, additional 
funding would be required to maintain agency capabilities. Additional 
funding also will be required within the budget plans for contract and/
or grant awardees in order to support the SPOT administrator function 
for each partner. Without the regular information and updates provided 
by partners within SPOT, the functionality of the system would be 
compromised.
    Dr. Snyder. Do you believe the language in the Memorandum of 
Understanding meets the spirit and intent of the Section 861 
legislation?
    Ms. Shauket. Yes. The MOU meets the overall spirit and intent of 
Section 861. It should be noted, however, that the MOU reaches beyond 
Section 861 to extend the provision to assistance awards/grantees as 
well.
    Dr. Snyder. For Iraq and Afghanistan, do you believe you have a 
sufficient number of contracting officers and other contracting 
personnel in-country? If not, what plan do you have to increase this 
number? What resources will you require to do so?
    Ms. Shauket. Even with the inclusion of related support personnel, 
including contracting specialists and Contracting Officer's Technical 
Representatives, USAID remains greatly understaffed with contracting 
and agreement officers to ensure the due diligence, best value, and 
transparency necessary to safeguard U.S. taxpayer funds spent in these 
contingency countries. For Iraq, the agency will have two U.S. direct 
hire Contracting Officers (COs) as of summer 2009. While the agency has 
more than 20 awards in Iraq, staffing needs are still being reviewed 
based on procurement plans. For Afghanistan, the agency currently has 
five U.S. direct hires to manage, oversee, and deliver on procurement 
needs in-country. A back-up office in Thailand provides support with 
two additional U.S. direct hire COs. Workforce plans for Afghanistan 
include increasing the number of U.S. direct hires in Kabul within the 
next six months to a total of eight U.S. direct hires. As well, the 
Office of Acquisition and Assistance plans on one additional CO in 
Thailand for support purposes.
    As the agency rebuilds its staffing levels, we continue to 
supplement our contracting officer needs in Afghanistan and Iraq with 
short- and long-term TDY support. With a need for experienced 
individuals in these positions, we will seek to recruit mid-level COs 
through the Development Leadership Initiative (DLI), and evaluate 
whether we will be able to place some of these individuals in our 
contingency countries, including Afghanistan.
    The resources necessary to staff up USAID COs in these countries 
involve sustained funding for foreign service positions (such as the 
DLI program) as well as committed funds to staffing up the USAID Office 
of Acquisition and Assistance. Another issue not addressed by adding 
resources to hire more COs, however, is the need to better manage the 
retention rates for our most experienced, senior foreign service 
contracting officers. This remains a concern as new hires via DLI must 
be well trained and gain extensive USAID contracting experience prior 
to deployment to contingency countries in most cases.
    USAID continues to review how to build its capacity to manage CO 
needs in these contingency situations with today's resource levels. 
Under this review, we will examine adopting business models currently 
followed by our DOD and DOS colleagues regarding fee for service or 
establishment of a working fund.
    Dr. Snyder. In your opinion, what is the appropriate vehicle to 
coordinate contracting activities across the interagency in future 
potential contingency settings? Is there room to improve interagency 
cooperation, and if so, what do you propose?
    Ms. Shauket. Strong and sustained interagency coordination in a 
contingency situation is critical to achieving USG goals. For this 
reason, room for improvement always exists.
    As an agency, we are committed to coordinating activities in a 
consistent manner. A core working group of equal-rank colleagues, for 
example, and/or the formation of an office dedicated to coordinating 
contracting activities for a particular country/region may be viable 
options for future contingency situations. For best coordination, of 
course, providing immediate action at the onset of the situation and 
sustaining it through the process with all parties present or accounted 
for are important considerations. As well, selecting coordinating 
representatives who can remain committed and open to the process 
associated with reconstruction/development planning should be 
considered.
    In particular to SPOT, one recommendation for continuity would be 
to appoint at least one DOD civil service employee to manage the 
interagency coordination of all SPOT activities. (Military personnel 
may often move through assignments in one- to two-year periods.) As 
well, DOS and USAID would need to appoint full-time staff dedicated to 
the multi-year effort. The appropriate resources, of course, would need 
to be determined to meet this need.
    Dr. Snyder. Do you believe the language in the Memorandum of 
Understanding meets the spirit and intent of the Section 861 
legislation?
    Mr. Hutton. The report language accompanying the National Defense 
Authorization Act for 2008 does not provide an indication of 
congressional intent for determining whether the Memorandum of 
Understanding (MOU) meets the spirit and intent of Section 861. 
However, the text of the July 2008 MOU signed by the Departments of 
Defense and State and the U.S. Agency for International Development 
(USAID) meets the common database requirements and addresses the other 
matters specified as a minimum in Section 861. In meeting the 
requirement to identify a common database to serve as a repository of 
information on contracts and contractors personnel in Iraq and 
Afghanistan, the MOU established the simplified acquisition threshold 
as a criterion for a contract's inclusion in the Synchronized Pre-
Deployment and Operational Tracker (SPOT), which was designated by the 
three agencies as the system of record for the required contract and 
contractor personnel information. The simplified acquisition threshold 
is $100,000 except for contracts awarded and performed overseas in 
support of a contingency operation, in which case the threshold is $1 
million. Since Section 861 did not specify a minimum dollar value 
threshold regarding which contracts should appear in SPOT, the database 
could exclude a significant number of lower dollar value contracts and, 
therefore, the personnel working on them even though they meet the 
criteria specified in Section 861.
    The Duncan Hunter National Defense Authorization Act for Fiscal 
Year 2009 amended section 861 by specifying additional administrative 
matters regarding offenses under the Uniform Code of Military Justice 
and the Military Extraterritorial Jurisdiction Act to be included in 
the MOU. The Act further required the agencies to modify their existing 
MOU to address these additional matters by February 11, 2009. However, 
according to State and USAID officials as of May 17, 2009 the required 
modifications to the MOU are still pending final approval.
    Dr. Snyder. In your opinion, what is the appropriate vehicle to 
coordinate contracting activities across the interagency in future 
potential contingency settings?
    Mr. Hutton. GAO has not assessed what the appropriate vehicles 
would be for coordinating contingency contracting activities across 
agencies. However, before the agencies can effectively coordinate their 
contingency contracting activities, they need to ensure that their 
respective decision makers have accurate, complete, and timely 
information on contracts and contractor personnel. They would then need 
to collectively determine what information should be shared, as well as 
when and how that information should be shared--all of which should be 
clearly specified so that each agency understands what has been agreed 
to and what its responsibilities are. Ideally, such an arrangement, 
which may need to be tailored to fit the circumstances of each 
contingency operation, would be in place before the start of an 
operation or soon after its start to ensure that coordination and 
communication are as effective as possible as soon as possible.
    Dr. Snyder. Your statement identified a number of management and 
oversight challenges related to using contractors in contingency 
operations. To what extent will SPOT help address some of those 
challenges?
    Mr. Hutton. SPOT has the potential to help address some of the 
contract management and oversight challenges GAO has previously 
identified. Specifically, once fully implemented and populated, SPOT 
could provide civilian and military officials with centralized, 
standardized data on the extent to which they rely on contractors, the 
tasks contractors are performing, and costs--all of which could inform 
and assist in planning efforts, account for costs, and mitigate risks. 
However, it is too soon to determine how useful SPOT will be as a 
management and oversight tool for Defense, State, and USAID. First, not 
all contracts and contractor personnel are being entered into SPOT. 
Foreign nationals, particularly in Afghanistan, are underrepresented in 
SPOT and the agencies only recently began entering some data elements. 
Second, it is not clear how the agencies will use the SPOT data that 
has been and will be entered. The agencies' focus to date has been on 
putting information into the system rather than pulling information out 
for management purposes. Further, the agencies have varying views on 
the level of detail and types of information that need to be captured 
in SPOT and the usefulness of such data to better plan for and oversee 
the use of contractors. As noted in GAO's statement, Defense, State, 
and USAID need to continue to work together to develop and implement a 
database that is flexible enough to be applicable across agencies while 
still providing detailed information to better manage and oversee 
contractors.

                                  <all>

</pre></body></html>
